<html>
<title> - SUPPORTING WELFARE REFORM: CRACKING DOWN ON DEADBEAT PARENTS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
      SUPPORTING WELFARE REFORM: CRACKING DOWN ON DEADBEAT PARENTS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 1999

                               __________

                            Serial No. 106-9

                               __________

            Printed for the use of the Committee on Commerce


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 55-154CC                    WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Daffron, Diana L., Chantilly, Virginia.......................     8
    Dutkowski, Wallace N., Director, Office of Child Support, 
      State of Michigan..........................................    40
    Hartwig, John F., Deputy Inspector General, Office of the 
      Inspector General, Department of Health and Human Services.    30
    Heckman, Jeannine, Fairfax, Virginia.........................     9
    Kryskowski, Renata, Detroit, Michigan........................    11
    Monahan, John, Principal Deputy Assistant Secretary for 
      Children and Families, Department of Health and Human 
      Services...................................................    26
    Skidmore, Donald, Investigator, Wayne County Sheriff's 
      Department, Child Support Multi-Agency Investigative Team, 
      State of Michigan..........................................    44
    Turetsky, Vicki, Senior Staff Attorney, Center for Law and 
      Social Policy..............................................    48
    Young, Nick, Director, Child Support Enforcement Division, 
      Commonwealth of Virginia...................................    35

                                 (iii)


      SUPPORTING WELFARE REFORM: CRACKING DOWN ON DEADBEAT PARENTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 1999

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                                     Committee on Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Burr, Bilbray, 
Ganske, Bryant, Bliley (ex officio), Klink, Stupak, Green, and 
DeGette.
    Staff present: Duncan Wood, investigator; Andrew Leyden, 
majority counsel; Mark Paoletta, majority counsel; Penn 
Crawford, legislative clerk, and Edith Holleman, minority 
counsel.
    Mr. Upton. Thanks, everybody, for coming. Welcome to the 
Subcommittee On Oversight and Investigations. We will start 
with some opening statements.
    Today we are holding a hearing on a new multi-agency child 
support enforcement task force. It uses an innovative approach 
to make deadbeat parents pay up. The task force, known as 
Project Save Our Children, was created in 1998 and combines 
Federal, State, and local resources in an integrated law 
enforcement effort. The program identifies, pursues, and 
prosecutes the most egregious offenders in order to force them 
to provide support for their children. Project Save Our 
Children intentionally publicizes these prosecutions to 
encourage all non-custodial parents to support their children 
or else face the prospect of arrest.
    America faces a serious child enforcement problem. On the 
one hand, the high rate of divorce, coupled with the high 
number of children born out of wedlock, means that there are 
approximately 19 million families with non-custodial parents. 
And, on the other hand, America's child support collection 
record is fairly dismal. In 1997, nearly $60 billion was owed 
by non-custodial parents, but only 25 percent of that total was 
actually collected. According to HHS, single parents and their 
children who are owed outstanding child support are more than 
twice as likely as other parents to live in poverty--with all 
that may mean in substandard housing, limited educational 
opportunities, exposure to crime and drugs, and other serious 
disadvantages. Furthermore, in many cases non-payment of child 
support is a direct cause of a family going on welfare.
    In recent years, Congress has tried to strengthen child 
support enforcement by giving the Federal Government new tools 
for tracking down and prosecuting deadbeat parents. Since 
approximately a quarter of all unpaid child support is owed by 
parents who have fled across State lines to avoid State child 
support enforcement efforts, the Child Support Recovery Act of 
1992 made it a Federal misdemeanor for deadbeats to flee to 
another State to avoid paying their child support obligations. 
The Deadbeat Parents Act of 1998 upgraded the crime to a 
Federal felony charge.
    In addition, the Welfare Reform Act of 1996 imposed strict 
child support obligations on non-custodial parents, and created 
new national data bases to establish parentage and track down 
deadbeat parents across State lines. The Welfare Reform Act 
also included an amendment I authored to suspend food stamp 
assistance to deadbeat parents.
    Primarily the brainchild of two offices within the 
Department of HHS, the Inspector General's Office and Child 
Support Enforcement Office, Project Save Our Children aims to 
get maximum leverage from these new law enforcement tools by 
combining the Child Support Enforcement expertise of Federal 
agencies, such as HHS, Department of Justice, FBI, and U.S. 
Marshals, together with State and local enforcement agencies, 
into a single integrated task force.
    And, in 1998 a demonstration project was conducted in 
Illinois, Michigan, and Ohio. Based on the results of the 
demonstration, HHS plans to expand Project Save Our Children 
into four new regions covering a total of 17 States in fiscal 
year 1999.
    I believe that this committee's oversight efforts can make 
a difference in the lives of everyday Americans. It can help 
lift women and children from the risk of poverty, and provide 
them with a brighter, more promising future, and for this 
reason, I am holding a hearing to highlight the new program to 
track down and prosecute deadbeat parents. If this committee, 
by focusing attention on this national crisis, can encourage 
one deadbeat parent to pay up, then I believe the hearing has 
been a success, and worthy of our time and effort here today.
    We will hear testimony of members of families who have 
suffered from the failure of non-custodial parents to provide 
child support and who have, subsequently, been able to locate 
and force their ex-spouses to pay up as a result of Project 
Save Our Children's multi-agency approach. We will also receive 
testimony from the two offices within the Department of HHS 
that are responsible for the creation of the program, as well 
as from State and local officials responsible for child support 
enforcement.
    Project Save Our Children is at a critical juncture, poised 
to expand from a small demonstration program into a large 17-
State program with five regional centers. At the end of the 
hearing, I hope we have a better sense of how well the program 
is working, what needs to be improved, and what further 
oversight might be required in order to ensure that deadbeat 
parents pay their fair share to support their kids, and keep 
their families off welfare.
    I welcome all the witnesses that we have today and I yield, 
at this time, to the ranking member of the subcommittee, Mr. 
Klink from Pennsylvania.
    Mr. Klink. I thank my friend, the chairman, for having this 
hearing. Well, let me start off by saying straightforward that 
the minority is joining the majority very much in opposing 
deadbeat dads. They don't think it is a good idea, and we would 
like to stop it. And, we similarly are against deadbeat moms. 
As Democrats, we are against anyone that fails to do anything 
that they are legally obligated to do in caring for a child 
that they have played a role in bringing into this world.
    After all, the emphasis on expanding Federal resources to 
find deadbeat parents came from our party. It was President 
Clinton in 1996 in the Welfare Reform Act to increase the 
penalties for parents who didn't pay child support, and it was 
the President in 1998 who made leaving a State to avoid paying 
child support a felony under Federal law. And, it was the 
President again who pushed for greater automation of State and 
Federal data bases in 1996, and the new national directories of 
new hires, so that deadbeat parents could be easier to locate. 
And, they have been easier to locate; 1 million of them have 
been located.
    Collecting child support payments for welfare families is 
particularly important, so that they are not completely without 
support when they reach the end of their welfare payments. In 
1996, only 13 percent of welfare families received at least one 
support payment. The process can be an arduous one, requiring 
court-issued support orders, warrants, investigative work to 
find a non-custodial parent, and a process to actually collect 
some money. This can take a great deal of personal and public 
resources.
    A very modest $5 million is in the fiscal year 2000 budget 
to support 95 new paralegals in the U.S. Attorney's Office to 
do investigations. We know that is not nearly enough.
    Some of those victimized by deadbeat parents are before us 
today, and they are going to tell us their very personal 
stories of dealing with the system. And, we thank you for being 
here because we know this is not something that is easy for you 
to do.
    But, I want to say something else. We don't want this to be 
a deadbeat hearing. And, I say this because we think that we 
have to have a hearing that can bring all parties together. And 
we, in the minority, would like to work closer with the 
majority in making sure that the witnesses that need to be here 
are here.
    And, I hope that you are sitting out there listening to 
this and say, ``Oh, no, here we go with partisan rancor.'' That 
is not what this is about. We want to be bipartisan. Fred Upton 
is my friend; Tom Bliley is my friend. But, we want to be 
included in making sure that the people are here at these 
hearings that can give us answers to these problems.
    Last Wednesday at 4:30, the minority received notice that 
the majority had scheduled an oversight hearing on welfare 
reform and deadbeat dads. Up to that point, this hearing was 
not on our radar screen. We were told very frankly that the 
majority did not intend to investigate the program before they 
went into the hearing room, that this was going to be a ``feel 
good'' hearing. The most informative document that the minority 
has received from the majority came from an article in 
Government Executive magazine, which I will attach to my 
statement. That is the extent, as far as we know, of the 
investigation.
    The minority staff was given just 6 days, if you include 
both Saturday and Sunday, to gain knowledge of the overall 
child support enforcement program and what its problems were. 
And, as you know, it is a multi-billion dollar program with 
almost 20 million outstanding cases. It didn't take too long to 
figure out that there were at least six concerns that we, in 
the minority, think that we should look at. And, I just want to 
bring this to the attention of our friends.
    First, despite all of the hype about these being Federal 
crimes, the Department of Justice and the Federal Bureau of 
Investigation have not been doing the investigative work 
necessary to bring large numbers of child support cases to 
closure. Since at least 1996, they have been giving most of the 
work to the Inspector General's Office at the Department of 
Health and Human Services, claiming a lack of resources. Now, 
whether this is true or not, or whether the FBI just wasn't 
interested in what could be considered low-profile cases, 
mostly misdemeanor cases, we don't know. We would like the 
answer to that. What we do know is that the majority did not 
ask for a witness from these agencies until we prodded them. 
Not surprisingly, Monday night was too late to get those 
witnesses here. Now, the subcommittee can review the 
enforcement of Federal criminal statutes without hearing from 
the FBI and Justice. We don't know how that can be done.
    Second, as the witnesses before us will testify, U.S. 
attorneys, and State and local prosecutors and judges have not 
been very interested in pursuing these cases, even when they 
are State or Federal crimes. By March 1998, the U.S. attorneys 
had filed only 560 criminal cases and 1,266 convictions. We do 
not know that the U.S. attorney--or we do know, rather, that 
the U.S. attorney took a sudden interest when Attorney General 
Reno made those cases part of their performance review. But, 
the numbers are still too low.
    State prosecutors have not been any better. One of our 
witnesses today will testify to only a 5 percent success rate 
in serving warrants. I can't imagine what the prosecution 
success rate was, but the prosecutors are not here to tell us.
    Third, the States have not been particularly good at 
collecting and automating the data necessary to find deadbeat 
parents and getting the money collected back to families. 
Michigan is one of those States that still does not have a 
certified system, even though the deadline was 15 months ago. 
It can take as long as 6 months after a family goes off welfare 
to get their child support payments from the State. Some 
advocates think that a central Federal data base is necessary.
    Fourth, task forces focusing on individual high-profile 
cases may mean less resources for children whose parents aren't 
as wealthy but need the money just as badly. What is the cost-
benefit analysis? What happens to those routine cases that 
don't generate any press? Fortunately, the minority staff, 
yesterday, located Vicki Turetsky of the Center for Law and 
Social Policy, who graciously agreed to address these systemic 
issues.
    Fifth, the States are short on resources, and getting fewer 
and fewer for more and more cases, many of which are not 
involving welfare families. Where are the additional resources 
going to come from? We still don't know.
    Sixth, the Inspector General, which is not supposed to be a 
day-to-day primary law enforcement agency, but a reviewer of 
the effectiveness of the agency's programs and a protector of 
the taxpayers' dollars, has used this program to get authority 
from the Justice Department for its special agents to carry 
guns, beat down doors, and make arrests, even in cases that do 
not involve a single Federal dollar.
    It started with a 1-year grant of authority in 1996 and it 
continues to this day. The Inspector General does not, and 
should not, have the resources to replace effective law 
enforcement agencies.
    In Michigan, the task force is looking at 338 referrals out 
of a million State cases. This is not going to solve Michigan's 
problem, nor can the IG be a disinterested evaluator of a 
Federal program when it is one of the implementors and the 
beneficiaries of that program. We are not convinced that this 
is a continuing role that is necessary or useful.
    The General Accounting Office also has done work on child 
support enforcement. GAO issued a report in August of last year 
entitled, ``Welfare Reform, Child Support, an Uncertain Income 
Supplement for Families Leaving Welfare,'' which I also have 
attached to my opening statement.
    GAO specifically looked at the State of Virginia and it was 
not a positive review. Families were being pushed off welfare 
before any effort has been made to recover their child support 
payments. But GAO wasn't invited to testify either. I ask 
unanimous consent to insert this report into the record.
    [The report, GAO/HEHS-98-168, is retained in subcommittee 
files.]
    Mr. Klink. Mr. Chairman, some subcommittees routinely do 
``feel good'' hearings, but that has not been the historic role 
of this subcommittee. Our hearings should be the culmination of 
extensive interviews, of field work, of document review, to 
determine what the problem is and what needs to be done to fix 
it. We should uncover new facts and help solve serious public 
policy problems, and I don't think that, as of yet, we have 
learned to follow that model. And, we would like to do that 
with you, and I think that we can have a great working 
relationship in doing that.
    What we have today, I fear, is kind of a ready-fire-aim 
approach to the investigations, and I think it makes us look a 
little unprepared. The issue of how custodial parents get child 
support, what they are due, is too important to be conducted in 
what I would call a quick or slip-shod manner if we want to be 
effective. We don't think it is necessary to do 1-week wonder 
hearings. We would like to take time to work together with the 
majority to make sure that we are really ready to take on these 
issues.
    And, I want to, again, thank the majority for the fact that 
they realize that this is an important issue. But it is an 
issue that we want to work with you on, want to make sure that 
we have all the information and all the witnesses before we get 
here to the hearings.
    With that, Mr. Chairman, I yield back my time.
    Mr. Upton. The gentleman's time has expired. The gentleman 
from Virginia, the chairman of the full committee and member of 
the subcommittee is recognized.
    Mr. Bliley. Mr. Chairman, I applaud you for holding this 
hearing today on the implementation of a new joint Federal, 
State, local child support enforcement program called ``Project 
Save Our Children.'' The need to crack down on deadbeat parents 
is evidenced by the fact that one-third of unpaid child support 
obligations is owed by parents that fled across State lines to 
avoid child support enforcement efforts.
    Project Save Our Children grew out of the Responsibility 
and Work Opportunity Reconciliation Act, commonly known as the 
welfare reform bill. If welfare reform is going to continue its 
success in getting families off welfare, improved enforcement 
of child support obligations is a necessary component. 
According to the Department of Health and Human Services, 
single parents who are owed outstanding child support are more 
than twice as likely as other parents to live in poverty and 
non-payment is a direct cause of welfare dependency in many 
cases.
    The Project Save Our Children task force identifies, 
locates, tracks down, and prosecutes the most egregious 
deadbeat parents in order to make them pay their child support 
obligations. The task force is credited with 185 arrests and 
more than $4 million in direct restitution in a three-State 
demonstration project conducted last year. The Department of 
Health and Human Services plans to extend this program into 
four new regions to cover 17 States, making this an excellent 
time to review how the program has worked to date by listening 
to those who have been a part of it.
    I would like to welcome all of our panelists here today to 
testify. I would especially like to welcome Nick Young, the 
Director of Child Support Division for the Commonwealth of 
Virginia, along with Diana Daffron and Jeannine Heckman, also 
from the Commonwealth. I thank you for coming here today and 
sharing your stories with us. Thank you, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Chairman. At this point, I do 
want to put into the record by unanimous consent, a statement 
by Mr. Michael Bilirakis, though not a member of this 
subcommittee, an important member of the committee who has 
worked long and hard for many years on cracking down on 
deadbeat parents, and sadly, he is at another hearing and 
dealing with veterans, which demanded his attendance. So, I 
would ask unanimous consent to put his statement in for the 
record.
    Mr. Klink. Mr. Chairman, we obviously have no objections, 
and we would ask that maybe we hold the record open at this 
point for statements from members on either side.
    [The prepared statement of Hon. Michael Bilirakis follows:]
   Prepared Statement of Hon. Michael Bilirakis, a Representative in 
                   Congress from the State of Florida
    Mr. Chairman, I want to commend you for holding this hearing to 
address the critical issue of ``deadbeat parents.'' It is unfortunate 
that we have to address concerns arising from parents who fail to meet 
their obligations to their children, financial or otherwise. Child 
support enforcement is one area which urgently needs to be addressed.
    Our nation's system for enforcing child support orders has failed 
miserably. As you know, in the United States child support has 
historically been governed entirely by state law and enforced through 
state courts. State agencies provide free enforcement services to 
families on welfare and also assist non-welfare families by providing 
low-cost services. Unfortunately, however, State agencies have had an 
abysmal track record. These agencies establish paternity in less than 
half of the necessary cases. Even worse, less than 21 percent of these 
cases result in collection of any support during the year.
    In addition, the time involved processing cases is extensive. 
Typically, parents have to wait more than six months to obtain a 
support order. If that were not bad enough, most of those parents have 
to wait more than a month to receive the first payment.
    Mr. Chairman, we must recognize that any delinquency in child 
support ultimately hurts innocent children. Individuals who neglect 
their parental obligations simply transfer the costs to the rest of 
society. They should not be rewarded for such action.
    That is why I will reintroduce the ``Subsidy Termination for 
Overdue Payments,'' or the ``STOP'' Act. This legislation would deny a 
broad range of federal benefits to individuals who willfully refuse to 
pay child support.
    Specifically, my bill would require applicants for federal 
financial assistance to certify that they are not more than 60 days 
delinquent in the payment of child support. If they are delinquent, 
they must be in compliance with the terms of an approved repayment 
agreement.
    The intent of my legislation is two-fold: first, to encourage 
payment of child support; and second, to preclude the use of federal 
taxpayers' dollars to assist individuals who neglect their children.
    Under my bill, the federal agency involved is not required to 
research the applicant's status. Rather, an applicant for federal 
assistance must make a simple affirmative statement of compliance. The 
requirement will be enforced through existing provisions of federal law 
which establish penalties for fraud in obtaining federal financial 
assistance.
    My legislation includes a ``good cause'' exception to avoid 
penalizing parents when they are unable to satisfy their child support 
obligations due to factors beyond their control. This exception is 
necessary to avoid punishing parents when, despite good faith efforts, 
they are unable to modify the terms of their child support obligations.
    Finally, the STOP Act emphasizes that child support payments are a 
fundamental civic responsibility. Passage of the STOP Act will 
guarantee that individuals who fail to satisfy their most basic 
parental obligations are not rewarded for such action.
    Mr. Chairman, the need for action on this matter is imperative. 
``Deadbeat parents'' should not receive federal assistance when they 
ignore their fundamental responsibility to their children. It is my 
hope that the STOP Act will be one step toward strengthening the 
enforcement of child support payments.

    Mr. Upton. Without objection. All members will be allowed 
to do that.
    At this point, I would recognize the member from Iowa, Mr. 
Ganske.
    Mr. Ganske. No comments. Thank you, Mr. Chairman.
    Mr. Upton. And then, the gentleman from California, Mr. 
Bilbray.
    Mr. Bilbray. Mr. Chairman, I will have a written statement 
presented to your office.
    I would just like to say that I want to commend you for 
having this hearing. Last year there was a lot of concerns and 
complaints about the fact that this committee was not 
addressing the issues that affect human beings outside of the 
Beltway, those issues that people were personally concerned 
about and were having effects on individual lives across this 
country. I want to commend you for having this hearing, because 
I think this is one of those issues that people want addressed 
because it does affect real, live, breathing people, men and 
women that basically want us to address this concern. And, I 
want to commend you for having this hearing.
    I would ask you that maybe we should have had it 2 or 3 
weeks ago, but we are moving as quickly as we can to try to 
handle this issue fairly and appropriately. And, I want to 
thank you for having that, and I think this will give a chance 
for the individuals today to articulate their concerns and ask 
us to take action to address the problem.
    I yield back, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Bilbray.
    At this point, we are ready for our panel. Ms. 
Kryskowski,--did I do, okay?--Ms. Daffron, and Ms. Heckman. You 
are aware that this subcommittee is an investigative 
subcommittee, and as such, we have always had the practice of 
taking testimony under oath. Do you have any objection to that 
practice?
    Ms. Kryskowski. No.
    Ms. Daffron. No.
    Ms. Heckman. No.
    Mr. Upton. The Chair, then, advises each of you that under 
the rules of the house and the rules of the committee, you are 
entitled to be advised by counsel. Do you have any desire to be 
advised by counsel during your testimony today?
    Ms. Kryskowski. No.
    Ms. Daffron. No.
    Ms. Heckman. No.
    Mr. Upton. In that case, if you would rise and raise your 
right hand, I will swear you in.
    [Witnesses sworn.]
    Mr. Upton. Thank you. At this point, we are ready for the 
testimony and I think we will start with you, Ms. Daffron, go 
to Ms. Heckman, and Kryskowski and your statement will be made 
part of the record in its entirety.

 TESTIMONY OF DIANA L. DAFFRON, CHANTILLY, VIRGINIA; JEANNINE 
  HECKMAN, FAIRFAX, VIRGINIA; AND RENATA KRYSKOWSKI, DETROIT, 
                            MICHIGAN

    Ms. Daffron. Okay.
    Mr. Upton. And, we'd like to operate under the 5-minute 
rule. So, in 5 minutes, I may hit this gavel so we can proceed 
with questions and maintain an orderly fashion. Thank you.
    Ms. Daffron. I don't know how close--is this all right?
    Mr. Upton. Why don't you get just a little bit closer, yes.
    Ms. Daffron. My name is Diana Daffron and I waited for over 
8 years for my ex-husband, John Thomas Mosher, to be held 
accountable for his non-payment of child support. On February 
2, 1999, he was found guilty on felony charges for non-payment 
of child support. The amount he owes exceeds $100,000. Our 
original support order was entered into the family court in 
Fairfax County for $180 per week in May 1989. Payments were 
either inconsistent or missing. The payments totally stopped in 
June 1990. He was jailed in June 1990, but it didn't make any 
difference. He still did not pay.
    In the last support order in April 1991, he was ordered to 
pay $800 per month plus the arrearage for our three children. 
Month by month went by and I received nothing. Not only was I 
not receiving child support, I did not have a home for my 
children. John Mosher and I separated in April 1989, and in 
June 1989, he came into our home and assaulted me by choking 
me. Consequently, I did not feel safe living in our ground-
floor condo because I knew John could easily get in.
    So, for the next 2 years, my children and I lived with 
family and friends until I was able to obtain public housing in 
February 1991. Prior to receiving public housing, I contacted 
the Division of Child Support Enforcement in August 1990. They 
were also unable to find John.
    In August 1991, I began receiving public assistance in the 
form of welfare checks and food stamps. During this time, John 
Mosher was placed on the Virginia ten most wanted deadbeat dad 
list. I continued to receive public housing and assistance 
until I remarried in June 1994.
    John T. Mosher contacted the Division of Child Support 
Enforcement in September 1994 to see if he still had a child 
support obligation. He was picked up and jailed again for 365 
days. He was placed on work release, during which time I 
received nominal payments. He was released early in April 1995 
and fled the State.
    Until the Federal law was passed to make it a felony in 
June 1998, there really wasn't any law to hold him accountable, 
while living in another State, to a higher degree. I did locate 
John Mosher in Galveston, Texas through an Internet source. 
Once I received the address, I contacted Phyllis Cooke of the 
Division of Child Support Enforcement, and she contacted Texas. 
The Federal agents finally located his employer in July 1998. 
Subsequently, he was charged and brought to trial. Since his 
arrest in 1998, I have again received partial support payments. 
I am not going to talk about my humiliation and embarrassment 
of having not received the child support, but having to go on 
welfare.
    I asked my 15-year-old daughter to write her feelings down 
because she was 7 at the time when we went on welfare, and this 
is what she said, ``I feel that we need stronger consequences 
for child support offenders, because my dad or my father never 
paid child support. Because we did not have child support, my 
mom had to go on welfare. People would send us hand-me-down 
clothes and shoes because we were poor. While people were 
shopping for back-to-school clothes, we had to wear old 
clothes. It was really embarrassing to have to wear old 
clothes. At Christmas, we didn't have that many presents. It's 
a parent's duty to provide for their children. The law has to 
be strongly enforced.'' And that was stated by my daughter, 
Michelle Mosher.
    That's the end of my testimony.
    Mr. Upton. Thank you.
    Ms. Heckman.

                 TESTIMONY OF JEANNINE HECKMAN

    Ms. Heckman. I just wanted to list a few of the issues that 
I felt were important: difficulties in obtaining case 
information from the County Child Support Enforcement Agency as 
the custodial parent, and some security issues; non-custodial 
parents relocating and changing professions; resources and 
background investigations; and financial burdens.
    My name is Jeannine Heckman and I was married for 9 years 
to a U.S. Marine military police officer, who also worked for 
the Criminal Investigating Department, Naval Investigative 
Services, and Immigration and Naturalization Services. We were 
divorced in 1987 in Honolulu, Hawaii. At the time, my daughter 
was 9 and my son was 6. The courts ordered my ex-husband to pay 
$220 per child per month, and provide health insurance.
    In 1992, my children went to visit their father who had 
moved to California, at which time their father decided to stop 
paying child support. When my son returned in September, my ex-
husband arbitrarily decided he would not be sending any child 
support because one child was residing with him and the other 
with me. He said no money would exchange hands.
    I contacted the Child Support Enforcement Agency in 
Stafford County and opened up a case. They told me, ``If you 
want to check on the status of your case, you must do so in 
writing or make an appointment with your case worker.'' So, 
weekly for about 2 months, and then every couple of weeks for 
over a year, I would either go down to the agency or write a 
letter requesting the status of my case. The most I learned was 
that the Child Support Enforcement Agency notified my husband 
that he owed child support.
    In 1996, I called the Child Support Enforcement Agency to 
have my case transferred to Fairfax County. Stafford County 
Child Support Enforcement Agency told me the case had been 
closed. At my insistence, they reopened it. On 19 March 1996, 
my ex-husband's wife called Stafford County Child Support 
Enforcement Agency and posed as an out-of-State case worker, 
and Ann Riley, the case worker assigned to my case, gave her 
the information she requested.
    Between 1987 and the present, my ex-husband moved from 
Kailua, Hawaii to four or five different places in California 
and back to two different places in Hawaii, each time causing 
the process to be reinitiated in each jurisdiction.
    Third of May 1996, my ex-husband called to inform me that 
he had resigned from Immigration and Naturalization Services 
and I would not be receiving child support. He also said I 
would not be able to find him. He refused to give me an 
emergency phone number or address.
    My current husband advised me that Federal law had recently 
been enacted concerning deadbeat parents. I then contacted the 
U.S. Attorney's Office. I sent three certified copies of the 
court order to Donna Schnaible in the Personnel Office of INS 
in California. It was too late. He withdrew his pension and 
left. I spoke to Anselmo Abramsen, a supervisor at INS in 
Honolulu who refused to give me any information.
    In May 1996, my ex-husband started a scuba diving business. 
He obtained a dive boat for the purpose of providing diving 
lessons. He also gave underwater guided tours of shipwrecks in 
Hawaii and did underwater photography. On October 7, 1997, the 
U.S. Marshal's Office arrested him as he pulled his boat into 
the dock. My ex-husband told the court that he couldn't afford 
to pay. I was advised that the government did not have the 
manpower to investigate his financial situation. In May 1998, 
my ex-husband was sentenced to pay $100 a month for the next 5 
years on a $16,000 arrearage plus current support of $220 a 
month. Subsequent to this, I found out my ex-husband is 
collecting 70 percent disability from the Marine Corps and 
going to school full time on VA benefits.
    The financial burden this has caused ranges from no health 
insurance coverage, resulting in large out-of-pocket expenses, 
to taking time off work to run around to the Child Support 
Enforcement Agency and help process paperwork. I didn't have 
the money to pay for after-school care and my son became a 
latchkey kid. This doesn't even begin to touch upon the 
emotional issues that developed because a father decides to 
break contact with his children, resulting in fees for 
psychotherapy.
    Mr. Upton. Thank you.
    Ms. Kryskowski.

                 TESTIMONY OF RENATA KRYSKOWSKI

    Ms. Kryskowski. Okay, is this on?
    Mr. Upton. Yes, I think all the mics are alive.
    Ms. Kryskowski. Okay. Ladies and gentlemen of the----
    Mr. Upton. You need to pull it just a little bit closer. 
Pull it down, bend it. There you go.
    Ms. Kryskowski. Now, can you hear me?
    Mr. Upton. Yes, that's correct. Thanks.
    Ms. Kryskowski. Ladies and gentlemen of the committee and 
guests, I would like to thank you for the opportunity to share 
our stories with you. I wish to thank my employer, First State 
Bank, for allowing me the time to come and to all involved in 
bringing us to Washington, DC.
    My husband, Steve, and I spent many years trying to get the 
child support for Vanessa that was ordered by my ex-husband 
when I divorced. I have been through a referee, show causes, 
and many other types of meetings. With every meeting, every 
hearing we attended, our goal was to have Vanessa's case 
reviewed, to allow the Wayne County friend of the court and 
others to see how important it was that Vanessa receive the 
support that she was due, that she needed.
    There were so many dead-ends, because every time it 
appeared it appeared we may get the support, Vanessa's real 
father would file bankruptcy. The Wayne County friend of the 
court's hands appeared to be tied because each hearing he would 
provide evidence that he wasn't working.
    In 1996, I received a call from a Mary Kedzior, a lawyer 
affiliated with the friend of the court or the Wayne County 
friend of the court. It was through her work that Vanessa's 
case was heard by the judge for the very first time. At the end 
of the case, Vanessa did receive a portion of her back child 
support, ordered by the judge, not of her father's free will. 
The court ordered for her father to pay his support obligation 
from that point forward. Vanessa's father never did comply to 
the judge's order after that, and rather than giving the 
support that would have been used to assist Vanessa with her 
condition.
    We continue to have struggles to meet the needs of 
Vanessa's condition, her needs as a child, and needs of a 
normal family life. In August 1998, I received a call from an 
Investigator Deputy Don Skidmore. He told me he was assigned to 
work with the multi-child support, the Michigan Child Support 
Multi-Agency investigative team, a new task force with a 
criminal action against delinquent non-paying parents. He 
wanted to help investigate regarding my daughter, Vanessa. This 
was the news we had been waiting for. I couldn't believe this 
was going to be it; that maybe somebody could help when 
everything else failed. I had heard a month earlier about the 
task force, but never thought Vanessa's case would be heard so 
soon.
    Deputy Skidmore, Don, has worked real hard on this case. It 
took many countless hours of investigating. Don along with the 
agent in charge of the task force, Scott Vantrease, and others 
have done a great job. They all have been very informative 
every step of the way, and helped me understand each 
requirement; worked to get me to every hearing, as well as have 
me kept up-to-date with information in the case.
    I then was introduced to a lawyer named Karen Plants with 
the Wayne County prosecutor's office. She helped Vanessa's case 
get to the second stage of the courts. She has done a great job 
getting the courts to understand how important this case is, 
and to her at the Wayne County's prosecutor's office, I would 
like to say ``thank you.''
    The criminal case with Vanessa's father is still in 
litigation, but closer than ever before. We are hoping, by 
coming here today and sharing our stories, that it could 
encourage others and show that there is a different way we can 
address delinquent parents who owe child support and scoff at 
the system, in a way which allows our kids not to have to go 
through the pain of growing up wondering why one of her parents 
don't seem to care.
    We, as adults, never talk about how our children feel. We 
never help our children understand that this is an obligation 
that no court should have to order, so that they grow up the 
better way. As a society, we are just realizing that our kids 
are going through that they never received the support that 
they deserve and need.
    Mr. Upton. Thank you. Thank you all for your very personal 
story in a very public light. All of us appreciate that very 
much. I have a couple of questions I would like to ask and we 
will trade questions among the members that are here.
    Ms. Daffron, you indicated that you were able to get 
Virginia's attention, when it all of a sudden became on the 
ten-most-wanted list. Do you know what triggered that?
    Ms. Daffron. The amount of money he owed. And, I called 
consistently asking about my case. So, my case was in the 
forefront. He owed a lot of money. The case worker--I don't 
remember who it was at that time--but she was very diligent in 
trying to find him, and running monthly--I guess, running his 
Social Security number monthly through their system, whatever 
system they use. And so, because I called so often and went in 
so often----
    Mr. Upton. The squeaky wheel.
    Ms. Daffron. That's it.
    Mr. Upton. Do you remember about what the threshold was, 
about what was the amount of money that was owed when he was 
placed on the ten-most-wanted list?
    Ms. Daffron. I think it was about $70,000.
    Mr. Upton. Okay. Ms. Heckman, was it told to you when you 
were working with your State, did they ever tell you why it had 
been closed when, in fact, you weren't getting payments?
    Ms. Heckman. No, they did not give me a reason. They just 
said there was no activity. And I had been calling and calling 
and writing. And, when I found out that other people were able 
to get information with a phone call, I was appalled. And, you 
know, they did reopen the case, but that was only because I had 
asked to have it transferred. And, that's when they discovered 
it had been closed.
    Mr. Upton. And, are you getting money today?
    Ms. Heckman. Yes. The arrearage is $16,000 and he is paying 
$100 of that each month.
    Mr. Upton. So, it is coming in?
    Ms. Heckman. It is coming in.
    Mr. Upton. When you learned that he was getting a 70 
percent disability from the VA, are you aware, is that able to 
be garnished at all or not?
    Ms. Heckman. Well, I just learned of that recently. When he 
had gone into court, they established that he only was taking 
in, either, 10 or 30 percent. So, I was told that what we 
should do is go back into the system and see if we can have 
that increased. In 5 years, when his obligation is up for 
payment, he will have only paid back $6,000 of the arrearage. 
He is also paying $220 a month, which is the same amount he was 
ordered to pay since 1987.
    Mr. Upton. Thank you.
    Ms. Kryskowski, you indicated that your case is now in 
litigation. Do you have a sense of when that will be concluded?
    Ms. Kryskowski. Well, so far it has been going on for about 
4 months, and I am not sure where it is going to be ending 
soon. He is supposed to appear in court in March. You know, at 
this point, it is still in litigation. I don't know what more I 
can do other than just wait until I have been--you know, 
through my lawyers, or my lawyer, what else I need to do if it 
is going to go in a different direction.
    Mr. Upton. Now, the person that you give most credit for 
helping you out, Mr. Skidmore, who is going to be testifying a 
little bit later this morning--do you know what the threshold 
was that prompted him to call you to see if he could be 
helpful?
    Ms. Kryskowski. Well, probably because of the fact that I 
kept on going down there countless times and letting them know 
that my daughter needed assistance. And, in 1988, my daughter 
was a United Way poster child, and I had given them a brochure 
at that point. Mary Kedzior was always aware of it, and I'm 
sure at that time when she was part of this in 1996, that she 
gave the same information to Mr. Skidmore and he took it from 
there. So far it has been great. We are still, like I said, in 
litigation, and we're looking forward to, hopefully, having an 
end.
    Mr. Upton. In terms of each of you, if you think about 
this, if each of you had some success in reaching out and 
seeing some accomplishment come about, how is it--you have a 
network of folks in your community that you are able to reach 
out that has provided some hope that this is working? What type 
of reaction do you have from friends or peers that are in the 
same type of situation? Have you had any experience with that? 
Has your success story been parlayed into others looking for 
the same type of hope?
    Ms. Heckman. It seems that you have to exhaust the system 
at the State level before you can get help from the Federal. 
You just feel very fortunate that you have made it to that 
point. When this first started out, you know, we were told, 
``Oh, you won't see the money for years.'' You know, that was 
the consensus. I am grateful that it was pushed to the Federal 
point where they stepped in and they took control of the 
situation and brought it to this point.
    Mr. Upton. My time has expired. Mr. Klink.
    Mr. Klink. Thank you, Mr. Chairman. First of all, Ms. 
Heckman, was your case handled at all by the State Federal task 
force? Did they play any role at all in your case?
    Ms. Heckman. From 1992 to 1996, it was run by Stafford 
County and then transferred to Fairfax County.
    Mr. Klink. So there was no Federal role in that at all?
    Ms. Heckman. Not in--the Federal role was started when I 
contacted the U.S. Attorney's office in, like I think it was, 
March 1996.
    Mr. Klink. It still predates the task force?
    Ms. Heckman. Right. Yes, so they----
    Mr. Klink. A Federal role, but it wasn't really the task 
force?
    Ms. Heckman. Correct.
    Mr. Klink. Ms. Daffron, how about your case? Was the new 
Federal State task force--did it have any role at all in your--
--
    Ms. Daffron. That I'm not sure. But I do know that they 
could not do anything with my case until it was proven that he 
was out of State. And that was never proven until I found his 
address through the Internet.
    Mr. Klink. Well, all of you have at least had some--have 
gone through a State enforcement program. Let me start with 
you, Ms. Kryskowski. Do you believe that child support 
agencies, prosecutors, judges are committed to doing all they 
can do to help people that are having child support problems 
like you were having?
    Ms. Kryskowski. Well, I think that some responsibility 
falls on somewhere in the chain of command like that because I 
have tried everything.
    Mr. Klink. But did you find a level of commitment that was 
satisfactory within the system, within the State system?
    Ms. Kryskowski. Meaning, like, what I'm doing now?
    Mr. Klink. No, no, no, no. Did you find the help that was 
necessary for you? Were they dedicated to solving your problem? 
Prosecutors, the agencies, were they fully dedicated to----
    Ms. Kryskowski. Now that we have the new task force, yes. 
But before that, it seemed like their hands were tied. They 
didn't have enough help or enough people to get involved. You 
know, where it is right now, you are able to investigate and 
look into it, where I can't--I'm not able to do that. I have no 
contact with him at all.
    Mr. Klink. So, it really wasn't a problem of their lack of 
dedication to help you. It was a resource problem at the State 
level. Is that what you ran into? They just didn't have enough 
resources to pursue----
    Ms. Kryskowski. Well, with him--resources in the sense of 
people?
    Mr. Klink. People, money.
    Ms. Kryskowski. Possibly. That could be what it could have 
been, yes.
    Mr. Klink. Ms. Daffron, what is your history? Do you think 
that the support agencies and the judges and the prosecutors 
give as high a priority to this; is that your experience?
    Ms. Daffron. The people I have dealt with have--have given 
as high a priority as they can. But, my problem with this State 
is that the laws are not stricter at the State level. And, if 
they were stricter, I think the consequence is greater--I'm not 
sure how great they can get at the State level. But, I don't 
think it would have gone on so long. I mean, he was out of the 
country. There is nothing to stop him from going out of the 
country, nothing really in place. And I think the laws at the 
State level need to be stricter.
    Mr. Klink. So, the State really didn't have the ability, I 
would suppose, to pursue him around the world or to other 
States?
    Ms. Daffron. Unfortunately, no. And, they couldn't even 
find him within the United States. I am the one who found him 
through an Internet resource with his Social Security number. 
And, I was told that they don't have that resource available to 
them.
    Mr. Klink. Are you a trained investigator?
    Ms. Daffron. No.
    Mr. Klink. But using a very simple technique, using common 
sense and a computer, you were able to do something----
    Ms. Daffron. For $35, I paid somebody to do a search on his 
Social Security number.
    Mr. Klink. Amazing, and yet the State agency was not able 
to do that?
    Ms. Daffron. No, it's sad.
    Mr. Klink. That's amazing.
    Ms. Heckman.
    Ms. Heckman. I think the caseload that the States are 
working with is outrageous. You know, when I went into the 
caseworker's office to find out if he had responded to their 
certified letter, I walked in and she had a stack of papers on 
the floor about 18 inches high, another stack on her desk, and 
she was searching through that for the return of the certified 
letter. And, I thought, ``it's like a needle in a haystack.''
    Mr. Klink. Let me ask a question and give each of you the 
opportunity to answer it. Tell us what changes you would 
recommend so that the State system would be able to help get 
money for families, for wives and children, as soon as 
possible. There are 19 million child support cases out there, 
each of which involves a parent and at least one child. Tell us 
what you think needs to be done in order to make this system 
work.
    Ms. Heckman. Well, I think they have to increase the 
caseworkers; they have to increase the personnel and give them 
as much authority as they need and information systems that 
they need to locate these people and whatever--I don't know if 
it would be funding that would help them process the--you know, 
collecting the money. And, doing a background investigation to 
find out--these people are self-employed; they're saying they 
make $8 an hour when they're racking in $400 a day, you know.
    Mr. Klink. Ms. Daffron.
    Ms. Daffron. I would agree with that, and also, I would 
also like, as I just stated previously, stricter laws at the 
State level once the people are caught. It was kind of nice 
when he was incarcerated in 1994 to 1995 because he was put on 
a work relief and I did receive some payment. But, they only 
held him for 6 months because that's all that was, I guess, 
legally that they had to do was hold him for 6 months. But, 
after he was released, there was no accountability for him. I 
mean, he just left. I think that's the time he went to Texas, I 
don't know though.
    Mr. Klink. Ms. Kryskowski, do you agree with them, or 
anything----
    Ms. Kryskowski. I agree with what both of them have been 
saying, and also, I think that they should have, like maybe, 
possibly a review once a year, twice a year--I mean, every 2 
years--to show, to see where they're at, ex-husbands are. And 
like, collecting money, saying they're making $8 an hour and 
then they are making $500 a week, we need to know that; they 
need to know that. We need to find out more of how we can do to 
help us out with the child support.
    Mr. Klink. Thank you, thank you, Mr. Chairman, for your 
patience. I think what I found particularly enlightening is, 
when you find a deadbeat dad, as was the case here, who is 
receiving Federal money in the form of both benefits and 
disability payments, while he is not living up to his 
obligation to support a child, I think that is just absolutely 
amazing. I yield back.
    Mr. Upton. Very sad.
    Mr. Ganske.
    Mr. Ganske. Thank you, Mr. Chairman.
    To follow up on that, a year or so ago, I introduced a bill 
that would close some additional loopholes in terms of being 
able to garnish moneys of deadbeat parents. I wanted to, 
particularly, thank the ladies who came for this panel. It is 
not easy coming to Washington and testifying before a 
congressional panel. I am also gratified that more members of 
the panel have been able to get here for your testimony.
    You know, clearly we have a situation where we have a 
Federal country where we have State jurisdiction and it is many 
times difficult when a deadbeat dad leaves a State and goes 
somewhere else in this huge country, for families to collect 
the support that they are legally bound to do.
    I testified on this issue when we were doing the welfare 
reform bill, and I am glad that we were able to get a provision 
in there that would help you locate, and then enforce, child 
support payments.
    Mr. Chairman, I think it is appropriate for us to have an 
oversight hearing on this to see how we are coming along on 
that legislation, which was passed in a bipartisan fashion, 
because I know the members on both sides of the aisle are 
concerned about these problems. I cannot tell you the number of 
times that constituents come to me, talking about how there is 
a deadbeat parent, usually dad, who they cannot collect their 
child support payments from. I will bet every member who is 
here has had some women similar to yourselves who have come to 
their congressional offices with an incredible story of 
irresponsibility on the part of their ex-spouses, and the fact 
that they just refuse to support their children.
    So, when we are dealing in a Federal system like we are, 
yes, sometimes the State services are overloaded. But, 
sometimes their hands are tied to the extent that Congress has, 
as in the welfare reform bill, and may need to do some 
additional work on that. I am sure that every member here 
pledges their help to try to help families like yours get the 
support that they deserve.
    Mr. Chairman, I yield back.
    Mr. Upton. Thank you, Dr. Ganske. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. I apologize for being 
late. I was at a caucus.
    As I look about the panel, I probably am the only one who 
has done family divorce work for a number of years when I was 
practicing law. I was also a police officer, and I cannot tell 
you how many times we have stopped members--I take that back, 
Mr. Chairman--stopped individuals on the road who had warrants 
out for them for non-support. You say, ``We have your 
individual,'' and they will say, ``So what? We are not going to 
pick them up.'' Because if they are from Detroit and I am in 
the upper peninsula, it is not worth the effort to go pick them 
up to have a show-cause hearing and then be released the next 
day. So, I certainly understand the frustrations.
    But, let me ask you some questions on ideas that have been 
kicked around and see if you agree with them or not. Some of 
the States--shall we take away drivers' license of individuals 
who are behind in support? Do we do automatic, mandatory 
paycheck deduction upon entry of divorce order; have mandatory 
deduction on the paycheck for child support, no questions 
asked, not discretionary, mandatory? And also, have any of you 
tried to use the Federal Government IRS to get back the income 
tax return of an ex-husband for support? I lead out three 
ideas; if you have any others, please let me know. Let's start 
on this end, Ms. Heckman.
    Ms. Heckman. Yes, the more you can do, the more you can, I 
guess, penalize them. You got to get their attention, one way 
or another, and take away their driver's license.
    Mr. Stupak. Okay. Let me ask this, though: If you take away 
driver's license and if you are in my district, which is one of 
the larger districts in the United States, a very rural 
district, there is no public transportation, how do they get to 
work, then?
    Ms. Heckman. Well, obviously, they are surviving somehow, 
right?
    Mr. Stupak. Sure.
    Ms. Heckman. In my case, my ex-husband doesn't have a 
vehicle. He uses the bus system.
    Mr. Stupak. Where does he live?
    Ms. Heckman. Hawaii.
    Mr. Stupak. Urban area there, I take it?
    Ms. Heckman. Yes, he's managing. He is doing quite well. He 
has managed to, you know, live a certain lifestyle without a 
driver's--well, he is not driving. I don't know; I'm sure he 
has got a license, but he is not driving. They need to know 
that before they can have other privileges; they need to 
recognize they need to be accountable. Attaching their Federal, 
their IRS, if they file. Some don't file.
    Mr. Stupak. Sure, I understand that.
    Ms. Heckman. And what was the second one?
    Mr. Stupak. The other one was mandatory deduction in the 
judgment of divorce automatically comes out of the paychecks, 
no questions asked.
    Ms. Heckman. If they are not self-employed. If they are 
self-employed or working under the table, you can't get a hold 
of that either.
    Mr. Stupak. No, I understand that. I understand that. Does 
your State have any of those? Do they take away driver's 
license? Do they take their State or Federal income tax? Do 
they have the mandatory deductions, payroll deduction at time 
of divorce?
    Ms. Heckman. They didn't at the time. He was on his own to 
pay, this was back in 1987.
    Mr. Stupak. Okay. So, of those three I mentioned, your 
State doesn't have any?
    Ms. Heckman. Not that I know of.
    Mr. Stupak. How about you, Ms. Daffron?
    Ms. Daffron. I think Virginia does have a--they do take the 
licenses away.
    Mr. Stupak. Has that been helpful to you in trying to 
obtain----
    Ms. Daffron. Well, he lives in Texas, so--well, he was 
living in Texas. And, also, at the time of our divorce, he was 
unemployed. So, what do you do there? And, I'm not----
    Mr. Stupak. Well, you still put it in there, that if he 
becomes employed, he----
    Ms. Daffron. That's true. But I'm not real hopeful I'm 
going to receive consistent--even being penalized and convicted 
of a felony, I'm not real hopeful I'm going to receive much 
support. I haven't received any this month. And, also, when I 
did find out he was in Texas, he was working, but to get his 
wages garnished down in Texas, Texas had to do it and it was 
kind of----
    Mr. Stupak. Sure, you go through your residence; it is more 
of a headache than it is worth.
    Ms. Daffron. Yes, yes.
    Mr. Stupak. Sure is. Is your ex-husband in jail now?
    Ms. Daffron. No, he will be sentenced the end of March.
    Mr. Stupak. Okay, okay. Ms. Kryskowski.
    Ms. Kryskowski. In my case, he never really had a job. So, 
I mean, that you could get any money from the IRS; taking away 
your driver's license is not really going to do it, either, 
because then he can't get to work to get the money we need. How 
he went through the system, they believed everything he said. 
He would tell them that he can only work 25 hours a week 
because he had health problems, so they believed him. And, you 
know, when you see that he has a car and he's living a life, 
that he could share a portion of that with his daughter, what 
do you do? I mean, it's hard to--it is like a needle in a 
haystack. It's hard to really hold onto anything when it's not 
down on paper.
    Mr. Stupak. I certainly thank all of you for coming. As I 
said, I have worked in this area and what my frustration is, 
while we may pass things at the Federal, if the States can't 
handle it where they have more control over the cases and then 
you try to Federalize it, I think it becomes more diverse and 
less opportunity to do any kind of enforcement.
    I know, while we talked about welfare reform, I didn't see 
where any mention of anything we did in welfare reform actually 
helped you out. And maybe it is too early. But, I would hope 
that the States could put more emphasis there or something, 
because I think the more you get removed from your cases, the 
less attention is going to be attributed to them. And, it is a 
struggle and I am struggling on how to best address it. Thank 
you and you did give us some ideas. Thank you.
    Mr. Upton. Thank you. Thank you, Mr. Stupak. Mr. Bilbray 
from California.
    Mr. Bilbray. Yes. First of all, I would like to commend my 
colleague from Michigan, because I think he articulated that 
this has to be a team effort. In all fairness, I think that Mr. 
Stupak pointed out that the Federal Government can't do it all. 
It needs to be a team effort, and under our system there is 
responsibility as a State and the Feds and we need them working 
together. So, I really want to compliment my colleague for 
pointing that out. It is something those of us in Washington 
don't like to do, because it looks like we are passing the 
buck.
    But, I think there is some concerns that we need to 
address. I think one of the issues is, how would the IRS handle 
this kind of debt if it was owed to them, the Federal 
Government, if this was a tax debt? And, would they allow 
somebody to jump from State to State and still avoid paying it 
off? I think that we can get a consensus here that this kind of 
obligation should be treated just like an obligation to the 
Federal Government's Treasury, no more, no less.
    Now, I operated a child protective service. I supervised 
one in San Diego County for about 2.8 million people. And, Mrs. 
Daffron, you have how many kids?
    Ms. Daffron. Three.
    Mr. Bilbray. Three. Like Bill Cosby says, ``If you have 
one, it doesn't count because when something is broken, you 
know who did it.'' I have five, so, okay. But you used a Social 
Security number. You knew the Social Security number.
    Ms. Daffron. Right.
    Mr. Bilbray. My question is, see, one of the things that we 
ran into is--and I am sorry that the ranking member is gone, 
because saying that for $35, you could track that down.
    Ms. Daffron. Right.
    Mr. Bilbray. I don't know about now, but in the past when I 
was doing this business, we were not allowed to use Social 
Security numbers. We basically had our hands tied. The privacy 
laws kept us from being able to do the type of background 
searches. And, I think that we need to really raise this issue.
    The other issue we see is, what if your ex had used a false 
Social Security number, which people can do all the time?
    Ms. Daffron. Right, right.
    Mr. Bilbray. So, I would really say to my colleagues here 
it is a good example of where we may need to address this 
issue--that, first of all, the ability to access records so 
that we can address these issues.
    Ms. Daffron. Yes.
    Mr. Bilbray. And my question is, would the IRS worry about 
using Social Security numbers to track down people who owe them 
money. And, if we really care, then we should care just as much 
about you getting your fair share of revenue for your children 
as we want to get our fair share of revenue for our tax 
structure.
    The other issue is the fact that we need to have a system 
to make sure that the people using Social Security numbers are 
the ones who really it belongs to, where you are going to get 
these people avoiding, and we have run into that.
    And, my colleague bringing up the State's cooperation is 
one that is near and dear to me, because it is 200 miles to the 
nearest State in my neighborhood, but it is a quarter of a mile 
to the Mexican border. And, though we have the Federal 
Government sending benefits to people in Mexico who actually 
owe.
    I would ask you this and let me just sort of focus on Ms. 
Daffron. If you left your three children and walked away, if 
you just packed up the car and drove away from them, what would 
be the government's reaction to you abandoning your children. 
Do you know? Do you have any idea?
    Ms. Daffron. No, I really don't.
    Mr. Bilbray. Let me tell you what it would be. It would be 
abandonment, child endangerment, and child abuse. It would be 
felonies, not misdemeanors. And, maybe we ought to start 
approaching this issue that the spouse who does not have 
custody, when they do not pay, are committing abandonment and 
abuse by not paying. And it should be addressed the same.
    The biggest issue is, if an officer in the upper peninsula 
of Michigan pulled you over and it was found that you had left 
your kids out freezing in an apartment with no heat, you are 
darn right, you would be dragged back into Detroit. It would be 
worth it to get you. I think that is the mentality we need to 
change here. I just wanted to bring that up.
    I think there are some opportunities. I think there are 
some problems here. And, I would only ask, Mr. Chairman, that 
we talk about this issue, that the Federal Government's 
approach to getting compensation to the children should be the 
same and should be the same standard, same importance that the 
Federal Government states of finding resources to reimburse it 
for its budget operations.
    I yield back, Mr. Chairman.
    Mr. Upton. Thank you, thank you. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. I don't really have 
any questions for the panel, except let me say how glad I am 
you came today. Before I came to Congress, I was in the State 
legislature in Colorado and I was a member of the judiciary 
committee. We spent 4 years on that committee trying to figure 
out how to make deadbeat parents pay their obligations. And, we 
did all kinds--we didn't have an automated system. We went to 
an automated system. We streamlined our State system. We did 
everything we could. And, we finally did pass a bill and there 
were some objection to it to take away drivers' license of 
people who didn't pay child support obligations. And, that was 
the most effective thing we ever did. We didn't actually ever 
have to hardly ever take away drivers' licenses, because when 
people got the notices they would go in and pay up.
    But, I think that the point Mr. Stupak and Mr. Bilbray made 
is a good one, and several of you made it, too. Which is, it is 
fine if Colorado or Michigan or California takes away the 
driver's license, if they are there. But, so often, these 
deadbeat parents, in an effort to avoid their obligations, move 
frequently. I mean, they move from State to State more than 
once within a year. And so, that is why we have to have some 
Federal cooperation, and also why we have to have very strong 
interstate compacts to collect child support.
    So, I really know where you are coming from and I just 
wanted to say, you know, ``Keep fighting for what you 
deserve.''
    Thank you, Mr. Chairman. I yield back.
    Mr. Upton. Thank you. Mr. Burr from North Carolina.
    Mr. Burr. Thank you, Mr. Chairman. And, like Mr. Stupak, I 
apologize for being tardy. But, I have had an opportunity to 
read the majority of your testimony. And, I just want to 
clarify a few things with Ms. Heckman and Ms. Daffron.
    Ms. Heckman, when I read your testimony, if I understood 
it, when the agency that was in charge of the enforcement in 
your State, your relationship with them was one that if you 
wanted to check the status of what they were doing, you had to 
either submit the request in writing or make an appointment, is 
that correct?
    Ms. Heckman. Yes, yes.
    Mr. Burr. Yet, if I understood your testimony right, your 
ex-husband's new wife simply phoned up and got the status 
somewhat mistruthfully, I guess, as far as who she was or what 
the intent was?
    Ms. Heckman. Yes.
    Mr. Burr. But that was openly shared with her?
    Ms. Heckman. And that was what?
    Mr. Burr. The status of the investigation was openly shared 
with her?
    Ms. Heckman. Yes, that was. And when I called the 
caseworker back, she said, ``Well, she didn't identify herself 
as his wife.''
    Mr. Burr. But you, as the woman affected----
    Ms. Heckman. Right.
    Mr. Burr [continuing]. Were never given an option under 
that system to call----
    Ms. Heckman. No, you cannot call.
    Mr. Burr [continuing]. And inquire on the status of the 
case?
    Ms. Heckman. You cannot call and get information on your 
case. You have to do it in writing or go and make an 
appointment with your caseworker.
    Ms. Heckman. How did that make you feel, this whole process 
having gone through?
    Ms. Heckman. Well, I understood the security of that, so 
that nobody could call and get the information.
    Mr. Burr. How did you feel after someone had----
    Ms. Heckman. Appalled, appalled, violated.
    Mr. Burr. And what was their explanation, if you----
    Ms. Heckman. ``We're very sorry. It won't happen again. 
I'll put a note on the computer that if somebody calls, they're 
going to need verification; actually they would need Kevin's, 
the ex-husband's, written permission for the case.''
    Mr. Burr. But you could not call and get status?
    Ms. Heckman. No, in no way.
    Mr. Burr. Ms. Daffron, if I understood what you said, in 
1991 your husband, your ex-husband was placed on the ten-most-
wanted deadbeat dads.
    Ms. Daffron. Correct.
    Mr. Burr. How did they catch him?
    Ms. Daffron. They didn't catch him; that's why he was on 
the list. How did they know he was one of the ten-most-wanted, 
though?
    Mr. Burr. No, they listed him as the ten-most-wanted. When 
did he present himself to them?
    Ms. Daffron. I guess I am not understanding what you are 
asking because----
    Mr. Burr. Well, I think you said, in 1994, he contacted----
    Ms. Daffron. Oh, in 1994, he--well, my current husband and 
I had been married a few months and he contacted Division of 
Child Support Enforcement to see if he still had a support 
obligation.
    Mr. Burr. Is this the period between 1991 and 1994 as one 
of the ten targeted people in the State?
    Ms. Daffron. Yes.
    Mr. Burr. They had no contact with your husband?
    Ms. Daffron. No.
    Mr. Burr. This was the first contact when your husband 
contacted them?
    Ms. Daffron. Correct.
    Mr. Burr. Given that he was one of the top ten targets, did 
you feel like they were working on it real hard?
    Ms. Daffron. It was in, what was called, their ``locate 
office'' in Fairfax County, which is the best you can get at 
that point. And, I think with the resources they had, I did 
think that they were doing the best they could.
    Mr. Burr. Okay, that is fair.
    Ms. Daffron. But they don't have enough resources.
    Mr. Burr. And, you know, I hope you understand that I think 
every member who is here today and those that aren't, we're 
trying to find a way for this to work.
    Ms. Daffron. Right.
    Mr. Burr. I mean, that is the whole objective. I am not 
here to try to put blame on one agency or not to another. We 
are here to try to work if there is a Federal role, and 
clearly, I think most of us think that there is.
    Ms. Daffron. Oh, yes.
    Mr. Burr. Then, let us perfect it as fast as we can. 
Certainly, the years that you went through without housing for, 
that safety net was provided. If it doesn't have to happen to 
anybody else, we would like to see that.
    Let me ask you, Ms. Kryskowski, you have been through this 
demonstration project. If there is anything frustrating, what 
was the most frustrating part of it and how would you suggest 
that that program be changed in the future to be more 
effective?
    Ms. Kryskowski. You mean the new task force?
    Mr. Burr. Yes, ma'am.
    Ms. Kryskowski. It hasn't been frustrating. I feel that, 
with the investigation that Don Skidmore has provided, it has 
been an excellent tool for all of us to know what is going on 
with my ex-husband. He hid a lot of information and he claimed 
he wasn't working for numerous of years with the friend of the 
court. And then, what Don revealed was he was working, and he 
has a car and he has a house, a truck, you know, $468 payments.
    Mr. Burr. So, as far as your experience with the new 
program, no recommendations that you would make about changes 
that should be suggested to them that would make it work 
better?
    Ms. Kryskowski. Well, I'm like, I guess you could say that 
I'm the first one in Wayne County. So, so far I have been very 
satisfied and I really like what has been going on. Changes-
wise, I can't really say if there is any need to be any 
changes, because so far I have been very satisfied with what 
has been going on.
    Mr. Burr. With the Chair's indulgence, if I could ask for 
one additional minute from my members?
    I found it interesting--I went through the training 
qualifications of the new program. And, again, I am not trying 
to prejudge the program, but I am more interested in what would 
be your response to this screening process--you have been 
through it--for the rest of the women out there who are no 
getting payments. The Screening Process Guide Qualifications, 
``delinquent obligor must have refused to pay at least $20,000 
in total child support, and obligation must have been 
outstanding at least 1 year. All civil resources to collect the 
arrears had taken place and the referring child support 
enforcement agency must have determined the obligor has the 
ability to pay.''
    My only question is, under this set of screening 
qualifications, how many people out there are not going to meet 
that, but are finding a hardship of no payment being made?
    Ms. Daffron. I don't understand why it is $20,000. Why not 
$10,000? I mean, $20,000 is a lot of money.
    Mr. Burr. As hardship has been----
    Ms. Daffron. That is almost 2 or 3 years of no support. So, 
$10,000 would be--even five, that's what the Federal level is. 
You have to be owing $5,000 and be out of State to get the 
Federal Government involved.
    Mr. Burr. Well, hopefully, in the next panel, we will find 
out why they chose that level.
    Ms. Heckman. I agree with that. I understand that that 
would probably totally increase the caseload. But, how long can 
the bank go out without a payment for your car, you know? And, 
we're talking about children here. We're not talking about, you 
know, okay, we'll defer payments. You know, this is children. 
And, it doesn't take but a couple of months to put a family in 
dire straits. You know, so I guess we'll just have to wait and 
see.
    Mr. Burr. Well, I hope everybody will have a----
    Mr. Stupak. Does the gentleman have any more time left? I 
was going to ask----
    Mr. Upton. The time is expired on----
    Mr. Burr. I would be happy to ask unanimous consent for an 
additional minute to yield to Mr. Stupak.
    Mr. Stupak. Will you yield a minute?
    You had asked about the top ten-most-wanted list there on 
the child support. That was for Virginia, right?
    Ms. Daffron. That's right.
    Mr. Stupak. It is my understanding--and correct me if I am 
wrong or if you have further information--that top ten list, 
just to show the frustration that is going on here, last time 
it was updated was what, 1996?
    Ms. Daffron. Well, yes. Well, on the Internet, when I went 
out, because the Division of Child Support Enforcement has a 
web page, he was on it in 1991 in the summer. And the last it 
said it was updated was 1991, I think.
    Mr. Stupak. Ninety-one? It is 1996 now, so we have 
progressed 5 years. We are still 4 years behind. When you see 
the frustration. Here is the most instantaneous form of 
communication; the last time it was updated was 1996, so----
    Mr. Upton. Especially since they have them.
    Mr. Stupak. If we can get it off the web, we can get the 
technology to work, we will submit it for the record.
    Mr. Upton. There is somebody else that ought to be on the 
list to take his place.
    The gentleman from Tennessee, Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. I do apologize, I had 
another subcommittee meeting and I have, since I have arrived, 
read your testimony. I appreciate very much your being here.
    Coming from a background of a law practice many, many, many 
years ago, and also the military, I am particularly intrigued 
with all of your stories. But Ms. Heckman, are you here on the 
end?
    Ms. Heckman. Yes.
    Mr. Bryant. Okay, good. I see your ex-husband was in the 
military? He was not retired, though?
    Ms. Heckman. He was medically boarded out after 15 years 
for an anxiety disorder--at that time, 10 percent disability.
    Mr. Bryant. Now, in reading your statement, you say at one 
point you did finally locate him and he was actually--you found 
out, I think, for the first time that he was on this disability 
payment as well as attending college on VA benefits?
    Ms. Heckman. That has been recent information. That has 
been since he has been told to pay the amount. So, since the 
judge told him it's $100 a month plus current support which is 
$220, I have since then found out that he is going to school 
full time to be a physical therapist and collecting 70 percent 
disability. But prior to this, he was teaching diving lessons 
and et cetera.
    Mr. Bryant. In your statement, you also mention that--I 
think this is when your husband was with the INS at one point 
and indicated he was resigning. And, before you could stop his 
withdrawal of his pension funds, he did that and disappeared. 
But my point here was that you contacted the IRS and they could 
not tell you where he was or would not tell you anything about 
how to locate him?
    Ms. Heckman. He had relocated from California to Hawaii 
with INS, with Immigration and Naturalization Services. I 
called his supervisor out there in Hawaii and told him who I 
was and that he owed child support. And he said, ``Well, I am 
not going to tell you where he is or give you any information 
as to his whereabouts; that's not my place.''
    Mr. Bryant. Now, I think, as my comment to this, and 
perhaps--I do want to listen to the second panel, because both 
of these panels are very obviously much experts on this issue, 
certainly from different perspectives. But it continues to 
amaze me that--and I know there are privacy rights out there, 
particularly at the Federal level, we respect, as we should. 
But, as several people have so eloquently said here--Mr. 
Bilbray, for instance--in terms of if you abandoned your 
children, what would happen to you. In effect, that is what we 
have here, that we cannot somehow overcome these privacy rights 
in today's society, that we cannot locate these people and 
communicate--and I guess I am particularly concerned about the 
government and your personal inability to have cooperation from 
both the INS and perhaps even the military. Because, there are 
tremendous avenues open there to locate people and to not only 
go after drivers' licenses and things like that.
    But, for instance, if you do not register for the draft, 
you are not entitled to benefits of college, Federal benefits. 
And I am struck by the fact that your husband is not paying his 
child support, ex-husband, and yet he is getting veterans' 
benefits to go to school. So, it may be that is an avenue we 
can look at.
    But, again, I just think a bigger picture is going to 
require somehow we open up in appropriate cases, where there 
are judgments down, the areas of communication at least within 
the Federal Government, and, hopefully, State governments where 
we can locate people and find out what they are doing and what 
government benefits they are receiving, tax returns, and these 
kinds of things. Again, I know we are balancing that with 
privacy rights. But, again, you have particularly egregious 
cases, and I know there are more out there. So, somehow I think 
it is up to Congress to make the lead and somehow making this 
balance appropriately.
    I thank each one of you for testifying today, and I would 
yield back my time.
    Mr. Upton. Okay. Anyone have any additional questions?
    [No response.]
    Well, thank you very much for making the journey that you 
did. Your stories are very important to us as we begin to move 
forward on these very important programs. We thank you very 
much. And you are now excused.
    We welcome now our next panel: Mr. Jack Hartwig, Deputy 
Inspector General for Investigations of HHS; Mr. John Monahan, 
Principal Deputy Assistant Secretary for Children and Families; 
Mr. Nick Young, Director of the Child Support Enforcement 
Division for the State of Virginia; Mr. Wallace Dutkowski, 
Director of the Office of Child Support; Mr. Donald Skidmore, 
Investigator for the Wayne County Sheriff's Department, and Ms. 
Vicki Turetsky, Senior Staff Attorney, Center for Law and 
Social Policy here in Washington.
    Before we start, I want to again ask our witnesses to 
confirm that they are aware this subcommittee is an 
investigative subcommittee and, as such, has had the long 
practice of taking testimony under oath. And, do any of you 
have any objection to testifying under oath?
    Mr. Hartwig. No.
    Mr. Monahan. No.
    Mr. Young. No.
    Mr. Dutkowski. No.
    Mr. Skidmore. No.
    Ms. Turetsky. No.
    Mr. Upton. The Chair then advises each of you that, under 
the rules of the House and the rules of the committee, you are 
entitled to be advised by counsel. Do you desire to be advised 
by counsel during your testimony today?
    Mr. Hartwig. No.
    Mr. Monahan. No.
    Mr. Young. No.
    Mr. Dutkowski. No.
    Mr. Skidmore. No.
    Ms. Turetsky. No.
    Mr. Upton. And, at this point, if you would, please, rise 
and raise your right hand.
    [Witnesses sworn.]
    Mr. Upton. Thank you. You are now under oath. I guess we 
will start with Mr. Monahan. Thank you.

TESTIMONY OF JOHN MONAHAN, PRINCIPAL DEPUTY ASSISTANT SECRETARY 
 FOR CHILDREN AND FAMILIES; JOHN F. HARTWIG, DEPUTY INSPECTOR 
GENERAL, OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF HEALTH 
    AND HUMAN SERVICES; NICK YOUNG, DIRECTOR, CHILD SUPPORT 
    ENFORCEMENT DIVISION, COMMONWEALTH OF VIRGINIA; WALLACE 
    DUTKOWSKI, DIRECTOR, OFFICE OF CHILD SUPPORT, STATE OF 
MICHIGAN; DONALD SKIDMORE, INVESTIGATOR, WAYNE COUNTY SHERIFF'S 
  DEPARTMENT, CHILD SUPPORT MULTI-AGENCY INVESTIGATIVE TEAM, 
 STATE OF MICHIGAN; AND VICKI TURETSKY, SENIOR STAFF ATTORNEY, 
                CENTER FOR LAW AND SOCIAL POLICY

    Mr. Monahan. Thank you, Mr. Chairman, and members of the 
subcommittee. I appreciate the opportunity to testify today on 
the progress that the Nation's child support enforcement 
program is making to help children across America.
    President Clinton has made child support enforcement a top 
priority and it is paying off. In 1998 we collected an 
estimated $14.4 billion in child support, an increase of over 
80 percent since fiscal year 1992, when only $8 billion was 
collected. We are proud of this administration's record on 
child support enforcement. As the President has said on 
numerous occasions, we need to do more.
    Before turning to our new initiative relating to criminal 
law enforcement, I would like to give you a brief overview of 
how the child support enforcement program operates. This is a 
joint Federal/State partnership which functions in all States 
and territories to locate non-custodial parents, establish 
paternity, establish and enforce support orders and collect 
child support payments from those who are legally obligated to 
pay. While programs vary from State to State, services are 
available to all parents who need them. States are largely 
responsible for operating the program, but there tends to be a 
greater Federal involvement in the interstate caseload, which 
now makes up nearly one third of all cases.
    Since 1975, the program has been continually strengthened 
through Federal and State statutory and executive actions. I 
would also like to note that, in 1996, the President signed the 
welfare reform bill. That law provides critical new tools to 
improve the child support program, including central registries 
of child support orders, a national directory of new hires, 
streamlined paternity establishment procedures, uniform 
interstate child support laws, license revocations, and 
passport denial.
    Whether through use of greater automation, simpler 
interstate procedures, or tougher new penalties, we are working 
with our State and local partners to make sure that no parents 
can ignore their financial obligation toward their children, 
especially when they have resources to meet those obligations. 
An example of the success we have seen already is the national 
directory of new hires, which last year located 1.2 million 
delinquent parents in interstate cases.
    We know that many non-custodial parents take seriously 
their moral responsibilities to pay child support regularly and 
on time. These parents recognize the importance of the 
financial and emotional support their children need and they 
voluntarily meet these responsibilities. This enormous group of 
parents deserves our respect.
    However, for a small minority of cases, even tougher 
enforcement penalties must be imposed. These are the most 
flagrant cases, where people have the resources to pay but 
willfully refuse to provide support for their children. These 
are individuals for whom there can be no sympathy. And, on 
behalf of their children, we are redoubling our efforts to 
locate them and, on behalf of all children, a public message 
needs to be sent about these parents.
    Our newest initiative, Project Save Our Children, is 
targeted at the small but reprehensible group of parents who 
over long periods of time willfully fail to take responsibility 
for their children. By prosecuting parents who have been 
ordered to pay support but will not do so, we are sending a 
pointed message of responsibility to them and helping to give 
their children a better chance in life.
    Under this initiative, HHS will launch task forces in 17 
States and the District of Columbia. State child support 
offices will refer their most serious delinquent child support 
cases to these sites where trained investigative staff will 
locate the violator, document the information needed for 
prosecution, and then provide fully prepared cases to the 
appropriate prosecutor. The new teams are based on a model 
project located in Columbus, Ohio. This Midwest law enforcement 
task force, formed by our office and the HHS Inspector 
General's Office, joined with Justice Department prosecutors 
and investigators, State child support agencies, and local law 
enforcement officials to coordinate efforts in a new 
investigative team.
    We have seen some promising results. More than $3.6 million 
in overdue support has been ordered already. My colleague, Jack 
Hartwig from the HHS Office of Inspector General, will tell you 
more about the task force operations and its early results. But 
suffice it to say, with this initiative we will identify, 
investigate, and when warranted, prosecute flagrant, delinquent 
child support offenders and collect all outstanding payments.
    Our goal is a nationwide, comprehensive, coordinated Health 
and Human Services, Justice Department response to unresolved 
interstate and intrastate child support enforcement cases. Let 
me reemphasize that this effort deals, primarily, with the most 
serious and flagrant delinquent child support cases as part of 
our Nation's overall child support enforcement strategy.
    Mr. Chairman and distinguished members of the subcommittee, 
thank you again for your invitation to testify. And, at the 
appropriate time, I would be happy to take any questions you 
might have.
    [The prepared statement of John Monahan follows.]
    Prepared Statement of John Monahan, Principal Deputy Assistant 
 Secretary for Administration for Children and Families, Department of 
                       Health and Human Services
    Greetings and Introduction
    Mr. Chairman and Members of the Subcommittee, thank you for 
providing me the opportunity to testify today on the progress the 
Nation's child support enforcement program is making to help children 
across America.
    As the Principal Deputy Assistant Secretary for the Administration 
for Children and Families, I supervise the Federal Office of Child 
Support Enforcement and have worked closely with Commissioner David 
Ross and his team to develop ways to ensure that parents who owe child 
support honor their obligations to their children.
    President Clinton has made child support enforcement a top 
priority, and it is paying off. We recently set new performance records 
for the program. In 1998, we collected an estimated $14.4 billion, an 
increase of over 80 percent since fiscal year 1992 when only $8 billion 
was collected. Included in the amount is a record $1.1 billion in 
delinquent child support collected from Federal income tax refunds for 
tax year 1997. This was a 70 percent increase since 1992, and 
collections were made on behalf of nearly 1.3 million families. In 1997 
we also established 1.3 million paternities, an increase of more than 
100 percent since 1992 when 516,949 were established.
    The President signed the Personal Responsibility and Work 
Opportunity Reconciliation Act in August 1996. Better known as welfare 
reform, the law provides critical new tools to improve our Nation's 
child support program--central registries of child support orders, a 
national directory of new hires, streamlined paternity establishment 
procedures, uniform interstate child support laws, license revocation, 
and passport denial. Whether through use of greater automation, simpler 
interstate procedures or tougher new penalties, we are working with our 
state and local partners to make sure that no parents can ignore their 
financial obligation toward their children, especially when they have 
the resources to meet their child support obligations. An example of 
the success we are already seeing from the 1996 welfare law is the 
National Directory of New Hires, which last year located 1.2 million 
delinquent parents in interstate cases.
    Child support is an essential part of welfare reform because it 
sends a message of responsibility to both parents and is a vital part 
of moving families toward work and self-sufficiency. It helps to ensure 
that single parent families and their children don't need to rely on 
welfare in the first place and for those who leave welfare, it can help 
to ensure that they don't fall back on the welfare rolls once they have 
left. Child support enforcement affects far more people than just those 
on welfare. Children in working poor and middle class families depend 
upon child support for greater financial security as well.
    We are proud of this Administration's record on child support 
enforcement, but, as the President has said on numerous occasions, we 
need to do more.
                 the child support enforcement program
    Before turning to our new initiative relating to criminal law 
enforcement, I would like to give you a brief overview of how the 
Nation's child support enforcement program operates. The program was 
established in 1975 under title IV-D of the Social Security Act as a 
joint Federal/State partnership. As a Federal/State partnership, it 
functions in all States and territories, generally through social 
services departments, but also through the offices of State Attorneys 
General or Departments of Revenues. Most States work with prosecuting 
attorneys and other law enforcement agencies and officials of family or 
domestic relations courts to carry out the program at the local level.
    The child support program locates non-custodial parents, 
establishes paternity, establishes and enforces support orders, and 
collects child support payments from those who are legally obligated to 
pay. While programs vary from state to state, services are available to 
all parents who need them. States are largely responsible for operating 
the program, but there tends to be greater Federal involvement in the 
interstate caseload, which makes up nearly a third of all cases. The 
Federal Government shares in the cost of funding the CSE program by 
contributing to states' administrative costs and providing incentive 
payments to them. Since 1975 the program has been continually 
strengthened through Federal and State statutory and executive actions.
             chronic nonpayers and the deadbeat parents act
    We know that many non-custodial parents take seriously their moral 
responsibilities to pay child support regularly and on time. These 
parents recognize the importance of the financial and emotional support 
their children need and voluntarily meet these responsibilities. We 
also know there are many low-income non-custodial parents who want to 
do the right thing and support their children, but who do not earn 
enough to meet their child support responsibilities. The President's 
Welfare-to-Work reauthorization proposal will help such fathers 
increase their employment so they can better support their children. 
And for the majority of non-custodial parents who do not voluntarily 
meet their responsibilities, routine enforcement tools like wage 
withholding or license revocation will be sufficient to induce them to 
pay their financial obligation.
    However, for a small minority of cases, even tougher enforcement 
penalties must be imposed. These are the most flagrant cases, where 
people have the resources to pay but willfully refuse to provide 
support for their children. These are individuals for whom there can be 
no sympathy. And on behalf of their children, we are redoubling our 
efforts to locate them. And on behalf of all children, a public message 
needs to be sent about these parents.
    The Child Support Recovery Act of 1992 made it a Federal crime to 
willfully fail to pay a past-due child support obligation for a child 
living in another state. In 1996, President Clinton proposed to make it 
a felony to cross state lines to avoid paying child support and last 
year, Congress passed and President Clinton signed into law the 
Deadbeat Parents Punishment Act of 1998. The Act creates two new 
categories of felonies, with penalties of up to two years in prison: 
(1) traveling across state or country lines with the intent to evade 
child support payments if the child support obligation has remained 
unpaid for a period longer than one year or is greater than $5,000; and 
(2) when the child support obligation has remained unpaid for a period 
of longer than two years, or is greater than $10,000, willful failure 
to pay child support to a child residing in another state.
                       project save our children
    Our newest initiative, Project Save Our Children, is targeted at 
this small but reprehensible group of parents who over long periods of 
time willfully fail to take responsibility for their children. By 
prosecuting parents who have been ordered to pay support but will not 
do so, we are sending a pointed message of responsibility to them and 
helping to give their children a better chance in life.
    Under this initiative HHS will launch task forces in 17 states 
(California, Delaware, Illinois, Indiana, Louisiana, Maryland, 
Michigan, Minnesota, New Jersey, New York, Ohio, Oklahoma, Oregon, 
Pennsylvania, Texas, Virginia, and Washington) and the District of 
Columbia. State child support offices will refer their most serious 
delinquent child support cases to these sites, where trained 
investigative staff will locate the violator, document information 
needed for prosecution, and then provide the investigated case to the 
appropriate prosecutor.
    The new teams are based on a model project in Columbus, Ohio, 
launched last summer. The Midwest law enforcement task force, formed by 
the HHS Office of Child Support Enforcement and HHS Inspector General's 
Office, joined with Justice Department prosecutors and investigators, 
state child support agencies, and local law enforcement officials to 
coordinate efforts in a new investigative team, with promising results 
so far. To date, 405 cases have been received and 311 of them have been 
referred to the investigative units, with 196 arrests being made. More 
than $3.6 million in overdue support has been ordered.
    The first task force covers three states: Illinois, Michigan and 
Ohio. The hub or this task force is an investigative unit located in 
Columbus, Ohio, that employs a number of sophisticated automated 
information systems and data bases (both government and commercial), 
the purpose of which is to locate non-payers and their assets. Four 
more hub sites, covering 14 additional States and the District of 
Columbia, will be operational by the end of the first year. My 
colleague here from the HHS Office of Inspector General will tell you 
more about the task force operations.
    But suffice it to say, with this initiative we will identify, 
investigate, and, when warranted, prosecute flagrant, delinquent child 
support offenders, and collect all outstanding payments. Our goal is a 
nationwide, comprehensive, coordinated Health and Human Services/
Justice Department response to unresolved interstate and intrastate 
child support enforcement cases alike.
    To help accomplish this, the Administration has proposed additional 
spending in the FY 2000 budget request. This money will pay for 
establishing investigative teams in five regions of the country to 
identify, analyze, and investigate cases for prosecution. Also the 
President's FY 2000 budget proposes additional Justice Department 
resources for legal support personnel in the U.S. Attorneys offices, 
which will allow increase prosecutions of deadbeat parents.
    Let me re-emphasize that this effort deals primarily with the most 
serious and flagrant delinquent child support cases. It is an effort to 
work with our state and local partners in a new, more vigorous manner.
    We are in the beginning stages of an initiative that we feel has 
great promise and are moving toward broader implementation. My 
colleague from the Office of the Inspector General will provide you 
with more detail on the results we have obtained thus far.
    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for your invitation to testify before you today. Our intent is to 
let everyone know that parents will be held accountable for supporting 
their children. I would be happy to answer any questions you may have.

    Mr. Upton. Thank you.
    Mr. Hartwig.

                  TESTIMONY OF JOHN E. HARTWIG

    Mr. Hartwig. Good morning, Mr. Chairman and members of the 
subcommittee. I, too, am pleased to be here this morning to 
tell you about a law enforcement initiative which I believe 
holds great promise for improving accountability for absent 
parents in meeting their child support obligations.
    The Child Support Enforcement program is a Federal/State 
partnership designed to foster family responsibility and to 
ensure that children are supported financially by both of their 
parents. In recent years, through this partnership, child 
support collections have increased dramatically. Even with 
these increases, however, collections were made in only one 
fifth of current child support caseloads. More effort is needed 
to fully address this problem.
    Recent law enforcement measures have played an important 
role in child support collections. The Child Support Recovery 
Support Act of 1992 made it a Federal offense to willfully 
avoid paying court-ordered child support obligations for a 
child residing in another State. We, in the Office of 
Investigations of the Office of Inspector General, have 
investigated violations of this act. To date these 
investigations have resulted in 159 arrests, 105 criminal 
convictions, and $7.6 million in back child support being 
ordered as part of the criminal sentencing of these subjects. 
We are very proud of these numbers, but realize that these 
accomplishments are small when compared to the massive number 
of delinquent cases.
    Therefore, our focus has been to work with State child 
support offices and the United States Attorney's offices to 
choose the most egregious cases, such as those with the highest 
arrearages or where the health and welfare of the children are 
at risk due to lack of support. We believe that these high 
profile cases serve as a deterrent to other non-custodial 
parents who are not making payments. Ultimately, our goal is 
not to prosecute people. Rather, by publicizing arrests and 
prosecutions, we hope that these individuals who may be sitting 
on the fence or not paying child support obligations will 
realize that there is a tremendous downside to not paying.
    You heard this morning a number of examples. Let me just 
add two. We had a case concerning a man who was a plastic 
surgeon and an attorney. He was arrested in New York on charges 
that he owed over $172,000 in child support. During his 
appearance in court, the subject told the judge that his annual 
salary was only $30,000 a year as a surgeon. Understandably, 
the judge was not inclined to believe him, and ordered him to 
pay back all his past due child support.
    There is currently an outstanding felony indictment and 
arrest warrant against a former professional football player. 
He had already been convicted under Federal misdemeanor 
provisions of the Child Support Recovery Act, but even after 
that conviction, he continued to evade making his child support 
payments. He was arrested again, he was released on bail so 
that he could try out for a pro football team, and he has not 
been seen since. He is currently a fugitive and owes 
approximately $95,000 in child support.
    Examples you heard today illustrate the incredible lengths 
that non-custodial parents may take to avoid paying their child 
support obligations. Many are becoming successful at hiding 
themselves.
    In response, we have to become more sophisticated in our 
investigative techniques. We began the Child Support 
Enforcement task forces to bring together Federal, State and 
local law enforcement officials to increase the number of 
successful prosecutions through a collaborative approach. 
Promising cases are referred to special screening units which 
conduct initial investigations. Investigations are then turned 
over to appropriate task force agents for full investigations. 
We believe the results are better targeting and investigations, 
and better cases delivered for prosecution.
    Our first task force, in Columbus, Ohio, has delivered 
significant results. Over 400 cases have been referred--over 
300 of these have actually been investigated to date--resulting 
in 180 arrests and 170 convictions or civil resolutions. These 
convictions have yielded over $3.8 million in child support. 
The task force has worked closely with public affairs offices 
of the States, law enforcement agencies, criminal justice 
agencies, and anyone else involved in the process to make sure 
that the arrest and conviction receive public attention in the 
hope of raising public awareness of the problem and the 
potential for prosecution. After one arrest in Michigan, county 
child support offices reported a substantial rise in the amount 
of money collected the week following the arrest.
    Mr. Chairman, I hope my comments this morning have been 
useful for you and the subcommittee as you consider your own 
agenda for improving the Federal child support enforcement 
system. Child support is one of the vital programs serving one 
of our most vulnerable populations. It is a key factor in the 
long-term success of moving families off public assistance and 
making them economically self-sufficient. This concludes my 
remarks and, I too, would be happy to answer any questions.
    [The prepared statement of John E. Hartwig follows:]
  Prepared Statement of John E. Hartwig, Deputy Inspector General for 
        Investigations, Department of Health and Human Services
    Good morning, Mr. Chairman. I am John E. Hartwig, Deputy Inspector 
General for Investigations within the Department of Health and Human 
Services. The Office of Inspector General shares your keen interest in 
improving the child support system, which serves some of the nation's 
most important citizens--its families and children. I am here today to 
highlight a new law enforcement initiative which we believe holds great 
promise for improving accountability of absent parents in meeting their 
child support obligations.
                       the child support problem
    On December 31, 1998, the Administration for Children and Families 
reported that the Federal/State child support enforcement programs 
collected an estimated $14.4 billion for Fiscal Year 1998, an increase 
of 7 percent from 1997's $13.4 billion, and an increase of 80 percent 
since 1992 when $8 billion was collected. In addition, the Federal 
Government collected over $1.1 billion in delinquent child support from 
what was to have been Federal income tax refunds for tax year 1997. 
Collections were made on behalf of nearly 1.3 million families.
    Although collections have increased dramatically, much work still 
remains to be done. According to the recently released Administration 
for Children and Families' 21st Annual Report to Congress, total child 
support payments collected in Fiscal Year 1996 were $12 billion; yet 
$45 billion in delinquent child support payments still remained to be 
collected.Caseloads also continued to increase, rising from 15 million 
in Fiscal Year 1992 to 19 million in Fiscal Year 1996. While 1 million 
new support orders were established in Fiscal Year 1996, of the 19 
million cases, 59 percent had court-approved child support orders. A 
total of only 4 million of these cases, one-fifth of the total 
caseload, resulted in a collection of child support. To the extent that 
these payments are not collected, the children of these families are at 
greater risk of welfare dependency.
    Progress is also being made in the steps required of custodial 
parents in order to receive child support payments with approximately 
one million paternities established in Fiscal Year 1996. Paternity 
establishment is one of these first steps required to enforce child 
support obligations. Almost one-third of all children currently on 
public assistance lack a paternity establishment, but new time limits 
on welfare benefits are likely to increase the incentive for 
establishing paternity and collecting child support.
                   the federal child support program
    The Child Support Enforcement Program is a Federal/State 
partnership designed to foster family responsibility and reduce the 
need for welfare and its cost to the taxpayer by ensuring that children 
are supported financially by both of their parents. All parents with 
custody of children who need or are owed child support can get help 
from their State or local child support enforcement agency. Each state 
designates an agency to administer the five mandated purposes of the 
program: to locate non-custodial parents, establish paternity through 
testing or consent, establish orders for child support, enforce those 
orders, and collect child support payments. This is accomplished 
through the courts or administrative processes. Partial funding and 
oversight of the program is provided by the Federal government.
    The Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (the Act) strengthened the ability of the child support 
enforcement program to collect support on behalf of children and 
families and created the Temporary Assistance for Needy Families (TANF) 
program, which replaced the Aid to Families with Dependent Children, 
the primary Federal public assistance program. Applicants for TANF 
assign their rights to support payments to the State as a condition of 
receipt of assistance. For non-welfare cases, child support collections 
are forwarded to the custodial family. By securing support on a 
consistent and continuing basis, non-welfare families may avoid 
dependency on public assistance and welfare spending is reduced.
             history of office of inspector general efforts
    The Office of Inspector General has a long and productive history 
of contributing to improving the child support system. Over many years, 
our audits and evaluations have addressed problems and offered 
solutions on such matters as paternity establishment, medical support, 
collection methods, management information systems, interagency 
collaboration, incentive funding, support order upgrading, and 
interface with the Federal income tax system. We have piloted many of 
the procedures that are now widely accepted in the field of child 
support enforcement. We are very proud of the ideas and information 
that we contributed to improving these efforts.
    In this vein, I would like to describe for you now an exciting new 
avenue of improvement based on criminal law enforcement.
                        law enforcement efforts
    The Child Support Recovery Act of 1992 made it a Federal offense to 
willfully avoid paying court-ordered child support obligations for a 
child residing in another State. Two felony provisions were added when 
the act was amended in 1998. The Office of Inspector General Office of 
Investigations began to investigate violations of the Child Support 
Recovery Act, initially focusing on those cases where the custodial 
parent was forced to enroll in public assistance because payments were 
not made by the non-custodial parent. We have extended our 
investigations to include all violations of the Child Support Recovery 
Act, but we continue to place a higher priority on those cases 
involving Federal public assistance funds due to the effect on the 
program and the vulnerability of those children and custodial parents. 
As with our investigative authorization with health care cases, the 
Department of Justice granted special deputy United States Marshal 
status on all of our child support enforcement cases. This status 
enables all our agents to carry firearms and execute arrest warrants in 
these cases, which significantly increases their ability to effectively 
investigate these cases.
    In general, all of our agents undergo the full 9-week training 
regimen at the Federal Law Enforcement Training Center in Georgia, 
which is also used by over 80 Federal law enforcement agencies to train 
Federal agents, including the Secret Service and the Customs Service. 
The Federal training program includes criminal investigative 
techniques, applicable Federal laws, arrest techniques, and use of 
firearms. Additionally, all our agents undergo several weeks of 
training concentrated on the Office of Inspector General, statutes and 
responsibilities, and receive a thorough grounding in the programs with 
the Department. Our agents regularly receive updated training on new 
methods and techniques and must demonstrate firearms proficiency 
quarterly. In total, new investigative agents receive approximately 500 
hours of specialized training during their first two years on the job.
                            accomplishments
    Since beginning our efforts in the area of child support 
enforcement, we have initiated over 600 cases, making or coordinating 
over 150 arrests. These cases have resulted in over 100 convictions and 
over $7.6 million in back child support being ordered as part of the 
sentencing of the subjects. While we are very proud of these numbers, 
we realize that these accomplishments are small when compared to the 
massive number of delinquent cases. Therefore, our focus has been to 
work with State Child Support Offices and the United States Attorney's 
Offices to choose the most egregious cases, such as those with the 
highest arrearage, or where the health and welfare of the children are 
at risk due to lack of support. We feel that these high profile cases 
serve as a deterrent to other non-custodial parents who are not making 
payments. Ultimately, the goal isn't to put people in jail. By 
publicizing arrests and prosecutions we hope that those people who may 
be sitting on the fence and not paying their child support obligations 
will realize the consequences of their failure to pay. The following 
are examples of our case work.
    1. A Border Patrol agent quit his job with the government after the 
INS began to withhold child support payments from his salary. He 
informed his former spouse that he would never pay his support, and 
that he was quitting his job and leaving the country so that he could 
not be found. After extensive investigation involving searching through 
computerized databases, the man was located in Hawaii, where he had 
started a scuba diving school. He was arrested on the dock when he 
brought his boat in after a class. He pled guilty and was sentenced to 
pay the full amount of child support owed$17,000. This case is an 
example of a parent who went to great lengths to avoid paying child 
support when he clearly had the ability to pay.
    2. A man who was both a plastic surgeon and attorney was arrested 
in New York on charges that he owed over $172,000 in child support. The 
case came to the attention of federal authorities through the surgeon's 
father-in-law, who was outraged that his son-in-law was not paying 
child support, despite his significant assets, which included a 
$300,000 home. During his appearance in court, the subject told the 
judge that his annual salary was only $30,000 a year as a surgeon. 
Understandably, the judge was not inclined to believe him and ordered 
him to pay all back child support. The man had previous altercations 
with police and at the time of arrest several automatic weapons were 
seized.
    3. There is currently an outstanding felony indictment and arrest 
warrant against a former professional football player. He has already 
been convicted under the misdemeanor provisions of the Child Support 
Recovery Act. But even after that conviction, he failed to comply so a 
criminal complaint was issued and he was arrested. He appeared in court 
and asked the judge to release him on his own recognizance so that he 
could try out with another pro football team. He has not been seen 
since so a felony indictment and arrest warrant have been issued. He is 
currently a fugitive and owes over $95,000 in child support.
    These examples of investigative work illustrate the incredible 
lengths that non-custodial parents may go to avoid paying their child 
support obligations, even those that clearly have sufficient means.
                      law enforcement partnership
    In the Fall of 1996, we began meeting with officials in the Office 
of Child Support Enforcement about combining our resources and 
strategically targeting our efforts to improve prosecutions of child 
support cases at the Federal level. Based upon our experience working 
with Federal partners and State and local officials on health care 
fraud matters, we know that the most successful way to tackle complex 
problems and improve investigative and prosecution efforts is to form a 
collaborative partnership. Working with the Office of Child Support 
Enforcement (OCSE), we developed a task force approach to bring 
together the social service and criminal justice agencies involved in 
child support enforcement at both the State and Federal levels to 
identify, investigate, and prosecute the most egregious offenders. 
Members on the task force include OIG special agents, FBI agents, U.S. 
Marshals, U.S. Attorneys and local District Attorneys, State child 
support enforcement staff, and State and local police. The task force 
will also attempt to identify and resolve the obstacles that have stood 
in the way of enforcing the child support laws. Currently we have one 
task force in Columbus, Ohio, which began operating in May, 1998, and 
covers three States--Illinois, Michigan, and Ohio. We have just begun a 
second task force in Baltimore, and three additional task forces will 
be starting up during the next few months in New York City, Dallas, and 
Sacramento. These cities were selected as a result of a decision to co-
locate with the OCSE audit offices. In addition, OIG, DOJ, State, and 
local resources required for task force efforts are readily available 
at these sites.
    One of the most important improvements made through the task forces 
include developing ``Case Screening Units'' for each task force. 
Working with the State Child Support Offices, these units will identify 
the most promising cases. The screening units, manned by analysts, will 
utilize public and private data bases to conduct a pre-investigation to 
determine the whereabouts of the subjects and also identify any assets 
that these subjects may possess. Once this information is established, 
the cases and the new information will be forwarded to the agents, who 
will then conduct a formal investigation in order to verify the 
information. The completed case package is then brought to the 
prosecutor with the evidence needed for prosecution already obtained. 
Using this approach, burdens are reduced on child support case workers 
and United States Attorney's Offices, and cases receive the necessary 
financial investigation. The end result is better targeted and 
investigated cases delivered for prosecution in complete form.
    The task forces will also bring local law enforcement into the 
arena. Where before, local law enforcement was mostly utilized to serve 
civil contempt warrants, in these task forces we are using local law 
enforcement in their capacity as white collar fraud investigators in 
order to investigate intra-state cases for potential criminal 
prosecution. The task forces are also bringing in the local District 
Attorneys' offices to prosecute these cases. The task forces are trying 
to demonstrate that State criminal statutes can be effective in 
enforcing individual orders and serving as a deterrent. This 
partnership is important because only one out of every three child 
support cases is interstate, meaning that the majority must be 
adjudicated at the state level. The task forces bring together both 
Federal and State partners so that the maximum number of cases can be 
handled at the appropriate level.
    Our first task force has already delivered significant results and 
promises to deliver more in the future. Over 400 cases have been 
referred to the task force's screening unit in Columbus. These cases 
have been fairly equally divided between inter and intrastate cases. 
Thus far, the task force has investigated over 300 cases with over 180 
arrests and 170 convictions or civil resolutions resulting. These 
convictions and settlements have resulted in over $3.8 million in child 
support being ordered. The task force has worked closely with the 
public affairs offices of the States, law enforcement agencies, and 
criminal justice agencies to make sure that the arrests and convictions 
receive public attention in the hope of raising the public's awareness 
of the problems and the potential for prosecution. After one highly 
publicized arrest in Michigan the county child support office reported 
a substantial rise in the amount of money collected the week following 
the broadcast. These collections, largely walk-ins, came from sources 
who had not paid any money in the recent past. It is our belief that 
the only reason that these payments started is because of publicizing 
the arrest.
                               other work
    Complementing our law enforcement work and building on the 
foundation of work mentioned earlier, the Office of Inspector General 
continues to conduct studies aimed at strengthening the child support 
enforcement system. We are currently examining (1) methods to increase 
cooperation of welfare recipients in establishing paternity and 
locating absent parents; (2) ways to further improve voluntary 
paternity acknowledgment in hospitals at the time of birth; (3) the 
effectiveness of current procedures for obtaining medical insurance 
coverage or other forms of medical support for children; and (4) 
evaluating the Federal Parent Locator Service. We are now finalizing 
work on the periodic review and adjustment of support orders, a process 
that helps children by taking advantage of the normal increases in 
income that young absent parents receive as they mature in their jobs. 
This latter study supports legislation offered by the Administration in 
its Fiscal Year 2000 budget to require that such adjustments be made. 
We will be happy to keep you and your staff informed as we finish each 
study.
                               conclusion
    Mr. Chairman, I hope my comments this morning have been useful for 
you and the committee as you consider your own agenda for improving the 
Federal child support enforcement system. Child support is one of the 
Department's most vital programs serving some of our most vulnerable 
population and a key factor in the long-term success of moving families 
off of public assistance and making them economically self-sufficient. 
The Office of Inspector General is committed at all levels to improving 
the system through our audits and evaluations and to providing law 
enforcement leadership to increase successful prosecutions of criminal 
violations of federal child support laws.

    Mr. Upton. Thank you, Mr. Hartwig. As you all listened, you 
heard some buzzers behind you. We have a vote on the House 
floor, so we will take an adjournment until--it is only one 
vote, so we will be back--we will start Mr. Young's testimony 
at quarter of 12.
    [Brief recess.]
    Mr. Upton. Members will be coming back. We all, you know--I 
am myself on three subcommittees. They all seem to meet at the 
same time. We have got a number of members here that are on 4 
and 5 subcommittees. I have got a colleague from Michigan, I 
think, on eight subcommittees. And so, when they have votes, it 
is tough.
    Your statements are made part of the record; you are able 
to summarize.
    I know I talked to a number of members in the subcommittee 
that indicated that they were coming back. They have got 
constituents in their offices, but at this point, it does take 
one member to object. There are two members here, so I think we 
are okay.
    Mr. Young.

                    TESTIMONY OF NICK YOUNG

    Mr. Young. Good morning. Thank you, Mr. Chairman, members 
of the subcommittee. I am pleased to be here. My name is Nick 
Young and I am the Director of the Virginia Child Support 
Enforcement Division and have been so for the last 2 years. I 
am also a board member of the National Child Support 
Enforcement Association. I am pleased to be here today to 
address the subcommittee.
    I would like to open with a few statistics to put our 
program and what we are facing in perspective. And, on your 
right, my left, you will see some charts on easel that will 
show you that one-fourth of all the children in Virginia are on 
child support, 25 percent. There are 2 million children in 
Virginia and a quarter of them are on child support. There is 
another quarter of them that are the product, also, of divorced 
families that the mother and father have figured out how to be 
amicably enough to get along where they are not on child 
support. But the bottom line is, 50 percent of the children do 
not live with somebody who has the same last name.
    The problem is growing. You will also notice in the next 
chart that the amount of arrearage, just in Virginia, is $1.4 
billion and it goes up by $200 million a year. So, it will be 
$1.6 very shortly, $1.8, and we will hit $2 billion in only 2 
years. Fortunately, Virginia is an administrative State. I can 
do 70 percent of the wage withholding. Seventy percent of the 
actions that are done in Virginia do not go into court, which 
means we do not tie up the court system and we do not allow 
people, necessarily, to use the court system as a delaying 
tactic. Virginia is also fortunate to have been one of the 
first two States to receive Federal certification of its 
automated case management program, very important.
    I have got some good news; I have got some not so good 
news. The good news is we collected about $313 million last 
year. The bad news, I have already told you, is that we are 
$1.4 billion in the hole to start with and we have got to catch 
up.
    Some more good news, though, is that child support workers 
have made some tremendous strides in the last couple of years, 
especially in light of the testimony you have heard from these 
ladies earlier. And, we collect $5.64 for every dollar we 
spend. The bad news is the caseload grows by 11,000 cases net 
growth a year. That is 17,000 children a year, net growth to 
the caseload.
    State and Federal welfare reform initiatives have resulted 
in a reduction in the welfare portion of our child support 
caseload, as reflected on this chart. That is good news. Those 
reductions translate into reduced collections, however, and 
also sometimes Federal reimbursements.
    All in all, however, the Federal Reform Act of 1996 has 
proven to be a catalyst for profound change. In Virginia, the 
most dramatic example is 25 percent reduction of children on 
welfare in child support caseloads. However, our non-welfare 
child support caseload has escalated. However, that is not 
necessarily bad, as many of those cases are former welfare 
recipients, and therefore, it is natural progression for them 
to move from welfare to non-welfare but remain in the child 
support caseload.
    As you heard from the testimony this morning, whether the 
mother was on welfare or not, many of the fathers in this 
particular case being the preponderance of the non-custodial 
parent, are committed to paying whether they have been 
incarcerated twice, as in the case of Ms. Daffron's husband, or 
multiple times, as we have on many examples.
    Virginia has a Kids First Campaign which is directly akin 
and related to the Project Save Our Children. We identified 
57,000 of the most egregious. Many times we get criticized for 
only addressing the top ten or the top twelve. We started on 
the most egregious 57,000 people in the State of Virginia in 
June 1997 and have stayed with those people. They have paid 
just under $50 million. They are also a catalyst to cause 
others to see that they will either pay or go to jail, and 
others are paying as well. It is a secondary effect.
    Additionally, we have started using boots, which is a 
device to immobilize a car----
    Mr. Upton. A lot of us have had them.
    Mr. Young. I beg your pardon?
    Mr. Upton. Not me.
    Mr. Young. Nevertheless, this device is having great 
success in Fairfax County, Virginia, which these two ladies 
have testified were in. The humiliation factor sets in, the 
boots are pink or blue, and we do not care if we put them on a 
boy or girl's car. We put them on there and it does not come 
off until you pay the child support.
    At each of your places--and I am finishing rapidly; I know 
my 5 minutes is up--you have the latest Virginia poster, wanted 
poster, the ``Heartless 13.'' We have issued this poster 13 
times since August 1989. And, yes, it is on the website and it 
is up-to-date. We have posted 120 individuals and we have 
located, captured, arrested, targeted, found 87 of the 120 on 
these posters.
    I will close by saying, ask any State in the Nation where 
the most difficult part of their caseload is, and you will find 
it is the interstate caseload. And, as you have already pointed 
out yourself, Mr. Chairman, 25 percent of the caseload is 
interstate. And, it is the toughest part to do. But this task 
force that the Federal Government has started and we are proud 
to join, offers us a great opportunity to break down the 
barriers in the State borders and to go after some of the non-
custodial parents who clearly have been using those borders as 
a safe haven to not pay child support.
    I want to also close by saying that, in my short 2 years 
with this program, it has become abundantly clear to me that no 
State will ever succeed without the help of Congress, the 
Federal Government. And, it is a partnership, and it won't work 
at State level as a misdemeanor crime without the help of Judge 
Ross and his great people that are doing such great work here 
with us. Sir, I am available for questions.
    [The prepared statement of Nick Young follows.]
 Prepared Statement of Nick Young, Director, Child Support Enforcement 
                   Division, Commonwealth of Virginia
    Good morning. My name is Nick Young, and I am the Director of the 
Virginia Department of Social Services' Division of Child Support 
Enforcement. I am also a Board member of the National Child Support 
Enforcement Association, and bring greetings from both the Commonwealth 
of Virginia and the Association. I am very pleased to be here this 
morning, and honored to have been invited to testify.
    The subject today is ``Supporting Welfare Reform: Cracking Down on 
Deadbeat Parents.'' My remarks today will, of course, be from the 
perspective of the successful program we run in Virginia.
    First, permit me to share a couple of telling statistics about 
Virginia's child support enforcement program: Our caseload today is 
421,000, representing approximately 552,000 children--25% of Virginia's 
child population. Though Virginia is recognized as having a very 
efficient program, it is unfortunately the case that we carry a $1.5 
billion arrearage, an amount that is growing by $200 million a year. 
Our caseload has grown over 25% in the last four years alone. We are 
one of only a handful of states that can conduct our business both 
administratively and through the courts. As a result, approximately 70% 
of our cases are managed administratively, which saves a great deal of 
time, paperwork and money. Our work is also accurate; we have a very 
low rate of appeals to our administrative decisions. Virginia was one 
of the first two states in the nation to receive in early 1996 full 
federal certification of its automated case management system; placing 
Virginia in the forefront of the nation regarding such systems.
    In many ways, the status of Virginia's child support program 
illustrates problems experienced throughout the nation in child support 
enforcement today. The overall picture is a study in contrasts. The 
good news is that Virginia collected over $313 million in child support 
in state fiscal year 1998--a record. The bad news is that this amount 
is but a drop in the bucket compared to the $1.5 billion that is still 
owed. the good news is that we are extremely productive in our work: 
for every $1.00 spent, we collect $5.64 in child support. The bad news 
is that our caseload grows by 11,000 cases (17,000 additional children) 
per year. The average caseload of a child support caseworker in 
Virginia, for example, is 910 cases. These statistics present an 
overwhelming challenge to even the most organized child support 
caseworker.
    More good news is the success of the national and Virginia's own 
statewide welfare reform initiatives. Welfare reform has resulted in a 
tremendous drop in the welfare portion of our child support caseload. 
Although our overall caseload is still rising, welfare reform is 
definitely working. Unfortunately, welfare reform's success is 
translating into reduced federal reimbursements, which have a 
deleterious effect on the ability of states to continue the momentum of 
reform. Relatively speaking, however, this is not the worst problem to 
have, and we are otherwise heartened by the tremendous level of federal 
support welfare reform has given to many of Virginia's creative 
initiatives to combat the child support problem. These initiatives--
some of which I am about to highlight--have helped make Virginia's 
program one of the most dynamic, successful child support enforcement 
programs in the country.
    Most of my comments today focus on strategies Virginia uses to 
crack down on child support evaders. Many of these strategies are today 
in existence and thriving because of the Personal Responsibility and 
Work Opportunities Reconciliation Act of 1996 (PRWORA). I stand before 
you today to emphasize that welfare reform has given us the means to 
strengthen our enforcement activities, and indeed, crack down on 
delinquent parents.
    The Personal Responsibility and Work Opportunities Reconciliation 
Act of 1996 marked a profound turning point in fighting the twin 
scourges of welfare and child support delinquency. PRWORA has generated 
success on many fronts.
    First, the new law has proven to be a catalyst for profound changes 
in many of the basic statistics regarding welfare. In Virginia, the 
most dramatic example is the 25% reduction of child support TANF 
(Temporary Assistance for Needy Families) cases since the law went into 
effect. More parents have moved off the welfare roles and into jobs, 
thereby providing the means to support their children. Virginia's non-
TANF child support caseload has correspondingly gone up--not altogether 
a bad problem, since many of those cases are undoubtedly former TANF 
recipients. Welfare reform is definitely providing more Virginia 
children the financial support they are due.
    PRWORA has also generated a burst of collaboration and cooperation 
between public and private entities, such as law enforcement, the 
courts and public agencies.
    One example is Virginia's co-location initiative. Begun as an 
experiment in the summer of 1993, the co-location of public assistance 
and child support staff has blossomed under welfare reform into a 
mutually beneficial strategy for TANF (Temporary Assistance for Needy 
Families) and child support staff and clients. Co-location has helped 
promote customer self-reliance under welfare reform, and allows TANF 
and child support staff to collaborate to provide better service for 
customers, streamline elements of case management, reduce 
administrative costs, and above all, provide more successful outcomes 
for customers. Co-location is now a vibrant statewide strategy. As of 
September, 1998, approximately 26 child support staff have been co-
located full- or part-time at 28 sites serving 22 local social service 
agencies. Five distinct models tailored to specific community needs 
have evolved throughout the state.
    Another example of collaboration and cooperation is Virginia's 
Paternity Establishment Program (PEP). Established in 1990, PEP grew 
under welfare reform into an effective program that gives unmarried 
parents the opportunity to voluntarily acknowledge paternity in the 
hospital, before the child goes home. As of 1998, 69 hospitals 
participated statewide, generating more than 11,250 paternities in 1998 
alone.
    Yet another example is the Commonwealth's KidsFirst Campaign. 
Initially begun in June, 1997, KidsFirst kicked off with a two-week 
limited amnesty offered to 57,000 of the most egregious support 
evaders. While the amnesty netted $1.2 million from 4,039 noncustodial 
parents; the crackdown that followed also generated outstanding 
results. Working in close cooperation with local law enforcement and 
judicial communities, a statewide ``roundup'' resulted in 512 arrests 
and show cause notices issued. Today, eight roundups later, the money 
generated by this campaign has topped $46 million, and 25,678 
delinquent parents are paying support. An added bonus has been enhanced 
rapport with the law enforcement community and the judiciary.
    Another collaborative and cooperative example is illustrated by the 
recent arrest of one of Virginia's most wanted child support evaders. 
Periodically, the Division publishes a most wanted list of child 
support evaders to keep public awareness high--and also because it 
generates great success. Laurence Judd was a notorious child support 
evader who owed his two children $155,000 at the time of his 
apprehension. His arrest not only made good copy, it also illustrated 
the extensive public/private/interstate/and multi-agency coordination 
that enforcement activities often involve in today's highly mobile, 
instant communication environment. In Mr. Judd's case, it took the 
collaborative effort of two states' child support offices, a Virginia 
local sheriff's office, credit reporting agencies, use of the Internet, 
and the Las Vegas Metro Police Department to successfully track and 
apprehend him. These kinds of complex multi-agency, multi-state 
endeavors, sadly, are necessary, but also are becoming more effective, 
efficient and prevalent thanks to the enhanced federal assistance as a 
result of welfare reform. Today, many such collaborative efforts exist 
that could not have existed before welfare reform.
    Another such collaborative effort in its nascent stage in Virginia 
is the Child Support Multi-Agency Investigative Team (or CSMAIT). 
CSMAIT is a multi-disciplinary work group whose mission is to increase 
child support collections by identifying, analyzing, investigating and 
prosecuting high profile child support cases. It focuses, in part, on 
highly technical financial and locate investigations using state and 
federal efforts collaboratively. In Virginia, CSMAIT participants 
include a diverse array of entities, including the Division of Child 
Support Enforcement, local sheriff's departments, the state police, 
local police departments, Commonwealth's Attorneys offices, the U.S. 
Department of Justice, and the federal Department of Health and Human 
Services. Virginia is excited about the potential of CSMAIT, and 
expects this initiative to bear fruit in the very near future.
    PRWORA has also provided authorization to strengthen a multitude of 
enforcement mechanisms, nearly all of which have allowed Virginia to 
expand and enhance its efforts to crack down on child support evaders.
    One such example is the suspension of driver's and professional 
licenses. Since Virginia's welfare reform law was implemented in July, 
1995, Virginia has suspended a total of 923 driver's licenses alone, 
generating collections in excess of $25 million. Virginia is moving 
toward full implementation regarding both occupational and recreational 
licenses, and denying passports to delinquent parents.
    Virginia's New Hire Program is another example. Thanks to federal 
welfare reform, Virginia now requires employers to report all new hires 
within 20 days of employment. This measure helps locate absent parents, 
enforce outstanding child support orders, and save administrative time 
and expense. Virginia also participates in the new federal program to 
place new hire information in a national database, in order to assist 
other state child support enforcement offices. Virginia also requires 
employers to ask employees at the time of hire to disclose the 
existence of any income withholding orders. As a result of these laws, 
wage withholdings between 1993 and 1995 rose 36%. Approximately $41 
million in collections can be attributed to Virginia's New Hire 
Program, since its inception in July, 1993.
    Still more examples center around the general problem of pursuing 
interstate cases. Expanding the Federal Parent Locator Network to 
improve the collection of locate information on interstate cases, 
adopting more uniform state child support laws to improve enforcement 
activities between states, and allowing administrative enforcement of 
interstate cases, have all begun to ease the pursuit of child support 
evaders across state lines. In addition, the passage of the Uniform 
Interstate Family Support Act (UIFSA) in each state has given states a 
framework to process interstate cases more sensibly. Virginia is 
redoubling its efforts to train its staff on the intricacies of UIFSA 
rules, and working interstate cases. It is exploring the option of 
hiring private contractors to work the cases in other states where 
large caseloads and differing rules have prevented a Virginia case from 
being worked. It is developing a tracking program that will allow us to 
identify specific states and localities where one-on-one interaction is 
needed to resolve case processing problems.
    Other examples of improved enforcement techniques include mandating 
the use of a single case registry, the authority to enforce child 
support obligations from federal employees and members of the Armed 
Forces, and many changes in the law that allowed the administrative 
process to be streamlined. All of these elements of PRWORA--taken alone 
or together--have resulted in marked improvements to Virginia's child 
support enforcement efforts--particularly the ability to crack down on 
delinquent parents.
    In conclusion, PRWORA has served as the catalyst for the most 
comprehensive revisions to Virginia's Child Support Enforcement Program 
in its 25 year history. PRWORA's comprehensive elements also fully 
support Virginia's determination to clearly communicate society's lack 
of tolerance for those who fail in their responsibilities to 
financially support their children.

    Mr. Upton. Thank you, Mr. Young.
    Mr. Duke Dutkowski, welcome.

               TESTIMONY OF WALLACE N. DUTKOWSKI

    Mr. Dutkowski. Thank you, Mr. Chairman. I thank the members 
of the subcommittee for the opportunity to testify today. My 
name is Wally Dutkowski and I am the Director of the Michigan 
Office of Child Support. I would like to thank the committee 
members for their interest in the Child Support Multi-Agency 
Investigative Team or CSMIAT project.
    Nearly everyone in America is affected by the child support 
program. Ask your neighbor, your friends, or your relatives 
that they will have a story about someone owing child support 
or not being paid support. Many children are on assistance 
today because their parents have not paid their child support.
    The child support program is complicated to understand and 
difficult to administer. It is also highly emotional because it 
deals with two of the most sensitive issues possible, parents' 
children and their money. Children need the basics of shelter, 
food and clothing. Beyond those basics, what children want most 
is the love and attention of their parents. All too frequently, 
child support cases result in the non-custodial parent failing 
to provide any of these fundamental needs.
    How extensive is this problem of failing to pay support? In 
1999, Michigan referred over 300,000 cases in arrears to the 
Federal tax offset program. Those 300,000 cases represent 
approximately 35 percent of our caseload with child support 
orders. Unfortunately, being in arrears is an all too common 
occurrence.
    There are many kinds of non-custodial parents. Some will 
pay regardless of whether the child support agencies exist or 
not and these are among the most responsible people in America. 
Some parents do not pay because they do not work and lack the 
financial resources to pay.
    In Michigan, we began to use welfare to work funding to 
help every absence parent of a TANF recipient find a job. 
However, we found the criteria for welfare to work to be so 
complicated that we switched to funding the effort with TANF 
funds. That way, we only had to worry about getting non-
custodial parents jobs and not the record keeping required for 
welfare to work funding. There are other parents who require 
more enforcement efforts. License revocation, income 
withholding orders and other enforcement tools assist us in 
enforcing orders against these parents.
    Then, there is the final group, the evaders. These are the 
most egregious cases. These parents did not walk away from 
their families, they ran, and they continue to run. These 
parents usually have an ability to pay their support, but they 
will do almost anything to avoid it.
    The last group is the one the Child Support Multi-Agency 
Investigative Team or CSMAIT is working on. Our efforts are 
aimed at sending a message that you can run but you cannot hide 
from your child support obligation. As one of our local 
sheriffs recently said, ``You can divorce your spouse, but you 
cannot divorce your children.'' We are not interested in 
putting non-custodial parents in jail. We simply want them to 
comply with their child support orders.
    Non-compliance with child support orders quickly becomes a 
law enforcement issue. The CSMAIT project is designed to bring 
child support and law enforcement together. CSMAIT provides 
resources to supplement current State efforts to pursue these 
evaders. The project is not to supplant what the States are 
already doing; it adds to it.
    When we began CSMAIT discussions with law enforcement 
agencies, we found we neither communicated nor coordinated 
efforts in any meaningful manner. CSMAIT was born in an attempt 
to formalize this effort, this new effort, of coordination. 
This effort is a work-in-progress. We are forming partnerships 
that did not exist even a few years ago. All of our efforts are 
directed toward a single outcome, ensuring evading, non-
custodial parents support their children.
    In Michigan, the CSMAIT project includes the Federal Office 
of Child Support Enforcement, the Office of the Inspector 
General from HHS, the Justice Department, the FBI, both offices 
of the U.S. Attorney, the U.S. Marshal, the Family Independency 
Agency, the Friends of the Court, the Supreme Court, the State 
police, county sheriffs, local police departments and local 
prosecuting attorneys. Working together, these agencies have 
been able to accomplish so much more than they were able to 
when we failed to cooperate.
    For example, in 1992 the Child Support Recovery Act 
Congress and was signed into law by President Bush. From the 
time the law was signed until March 1998, Michigan referred 44 
cases to the U.S. Attorney's offices. We obtained two 
convictions. Since April 1998, we have referred 338 cases to 
the CSMAIT project; 278 cases are currently open for 
investigation; 4 cases have been successfully prosecuted; 3 
more non-custodial parents have been arrested and are awaiting 
prosecution; 2 more have warrants issued and are expected to be 
arrested shortly; and 3 additional cases are in various stages 
of prosecution using the Michigan felony statute.
    Results that are even more impressive have occurred because 
of the threat of prosecution. In less than 1 year, 61 non-
custodial parents have agreed to pay over $2.3 million due to 
the threat of prosecution by this team, and we have only just 
begun.
    We must expand these efforts and we must send a message 
that States will work with parents to assist them in complying 
with their child support orders. However, when a parent 
abandons their responsibility, leaving the child and family 
more vulnerable to a life of poverty, we must be able to take 
swift and certain action. The message must be clear as 
possible. If you willfully attempt to evade your responsibility 
to your children, you will be prosecuted, regardless of how far 
you run. The CSMAIT projects sends that message. Tomorrow's 
adults are witnessing the message we send to today's non-
compliant parents. Our message must be clear and it must be 
certain.
    I urge you to support the expansion of CSMAIT in the hopes 
that tomorrow, failing to support your children will be an 
issue we discuss in the past tense. Thank you.
    [The prepared statement of Wallace N. Dutkowski follows.]
 Prepared Statement of Wallace N. Dutkowski, Director, Office of Child 
                       Support, State of Michigan
    The State of Michigan respectfully thanks the subcommittee for the 
opportunity to provide this written testimony regarding the Child 
Support Multi-Agency Investigative Team or CSMAIT. The State of 
Michigan would also like to thank Chairman Fred Upton, and the members 
of this committee for addressing this important issue. I will describe 
the CSMAIT project in more detail shortly. First, let me begin with 
some background on why we are cooperating fully with this effort.
                               background
    Nearly everyone in America knows about child support. Ask your 
neighbor, your friends or your relatives and they will have a story 
about someone owing support or not being paid support. At the same time 
almost no one understands the program. Worse yet, hardly anyone likes 
the program. It is complicated to understand, difficult to administer, 
highly emotional and it deals with two of the most sensitive issues 
possible--children and money. Many view the program as an inappropriate 
intrusion into parents' personal business.
    The truth is parents who choose to end their relationship with each 
other often cannot remain civilized toward each other. If children are 
involved, this change in the relationship can have debilitating effects 
on all family members. Children need the basics of shelter, food and 
clothing. Beyond those basics, what children want most is the love and 
attention of their parents. All too frequently child support cases 
result in non-custodial parents (or NCPS) failing to provide any of 
these fundamental needs.
    How extensive is this problem of failing to pay support? In 1999, 
Michigan referred over 300,000 NCPs to the federal tax offset program. 
The cases were at least three months behind in their payments or $500 
or more in arrears (for non-TANF cases or $150 for TANF cases) in 
meeting their support obligation. Those 300,000 NCPs represent 
approximately 35% of our caseload with child support orders. 
Unfortunately, being in arrears is an all too common occurrence.
    Failing to support your children is a crime in every state, yet 
thousands of parents fail to comply with their child support orders.
                          the problem we face
    There are many kinds of non-custodial parents. In a recent study, 
one of the nation's Title IV-D programs determined there were five 
types of NCPS. Describing the five types of NCPs will help you 
understand why we need the assistance of law enforcement agents in the 
child support program.
Uninformed NCPS.
    These are the parents who are among the easiest to help. Our 
program can provide information to explain why and how you can comply 
with your child support order. In Michigan we stress the importance of 
having two parents involved in each child's life. For example, we 
started a publicity campaign featuring two Detroit Lion football 
players discussing the importance of being a father and the need to 
support your children--whether you are separated, divorced or were 
never married.
Ready NCPS.
    These parents, which are many, would pay their support even if 
child support programs were not here to enforce it. They pay their 
support and they spend quality time with their children. These are some 
of the most responsible people in our country.
Unable NCPS.
    These parents would support their children but they are unemployed. 
In Michigan we have a program that will help any NCP, who does not have 
a job and whose family is receiving public assistance, find employment. 
If a parent cannot pay their support because they have no income, we 
will help that parent find a job so that parent can fulfill their 
obligation to support their children. We ran this program with Welfare 
to Work money, but found that the criteria was so complicated and 
stringent that we are now funding the program out of our TANF money 
instead. By using TANF funds, we only have to worry about getting the 
NCP a job, not on the record keeping required by Welfare to Work 
funding.
Reluctant NCPS.
    These are the parents who walk away and wonder why they should 
continue to support their children when public assistance is available. 
Whether it is the result of the negative experience with their former 
partner, frustration, or an unwillingness to take personal 
responsibility for their past behavior, these parents do not see the 
need to consistently pay support. For these parents, we have many tools 
to use. Thanks to Welfare Reform, passed by Congress in 1996, we have 
more tools today than before the Personal Responsibility and Work 
Opportunity Reconciliation Act was enacted. Among the tools we can use 
are mediation services, Income Withholding Orders, professional and 
drivers license revocation, passport denials and asset seizure 
processes. Reluctant NCPs need to constantly be reminded of their 
personal responsibility for their children.
Evader NCPS.
    These are the most egregious cases. These parents did not walk away 
from their families--they ran. And they continue to run. These parents 
usually have an ability to pay support but have decided they do not 
want to. They will do almost anything to avoid paying support. They put 
their personal property in their parent's or their significant other's 
name. They move frequently. They use fictitious social security numbers 
and names. They are less concerned about their own personal well being 
than they are about avoiding paying their child support.
               why the child support program needs csmait
    This last group is the one the Child Support Multi-Agency 
Investigative Team is working on. Our efforts are aimed at sending a 
message that you can run but you cannot hide from your child support 
obligation. As one of our local sheriffs recently said, ``You can 
divorce your spouse but you cannot divorce your children.'' We are not 
interested in putting NCPs in jail. We simply want them to comply with 
the child support order. CSMAIT provides resources to supplement 
current state efforts, not to supplant what states are already doing. 
Most IV-D programs do not have sufficient staff to perform all the 
functions they are charged with at a satisfactory level of performance. 
This is particularly true in the area of enforcing orders where there 
is aggressive non-compliance.
    Non-compliance with child support orders quickly becomes a law 
enforcement issue. For years child support and law enforcement spent 
little time looking at the areas where our programs intersect. Dealing 
with law enforcement from a child support perspective, and vice versa, 
were necessary evils that were just part of the program. The CSMAIT 
project is designed to change all that so that both groups can see the 
common ground in their missions.
    When we began discussions about the interface between our programs, 
both child support and law enforcement agencies found a lot in common. 
We also found we did not communicate nor coordinate efforts in any 
meaningful manner. Through the efforts of the federal Office of Child 
Support Enforcement in HHS, the program began to explore ways to 
strengthen the relationship between state programs and federal, state 
and local law enforcement officials. CSMAIT was born in an attempt to 
formalize this new effort at coordination. This effort is a work-in-
progress. We are forming partnerships that did not exist just a few 
years ago. The focus of the project is to improve coordination and 
cooperation between agencies. All of our efforts are directed towards a 
single outcome: ensuring Evading NCPs fulfill their personal and legal 
obligation to support their children.
    The CSMAIT project includes a myriad of agencies. In Michigan, we 
have included the following: from HHS--the federal Office of Child 
Support Enforcement and the Office of the Inspector General, the 
Justice Department, the FBI, both offices of the U.S. Attorney, the 
Family Independence Agency, the Friends of the Court, the State Supreme 
Court, the State Police, county sheriffs, local police departments and 
local prosecuting attorneys. Working together these agencies have been 
able to accomplish a great deal.
    Allow me to give you an example. In 1992 the Child Support Recovery 
Act was passed by Congress and signed into law by President Bush. This 
law made it a federal crime (a misdemeanor) to move from state-to-state 
to avoid paying child support. From the time the law was signed to 
March 1998, Michigan referred 44 cases to the U.S. Attorney's Offices 
in Michigan. From those 44 cases, we obtained two convictions. Since 
April 1998, we have referred 338 cases to the CSMAIT project. Of these 
cases, 279 cases are currently open for investigation by the Team. $9.9 
million dollars is owed on those cases producing an average arrearage 
of over $35,000 per case. To date, four cases have been successfully 
prosecuted, three more NCPs have been arrested and are awaiting 
prosecution and two more have warrants issued and are expected to be 
arrested shortly. Three additional cases are in various stages of 
prosecution using the Michigan felony statute and CSMAIT investigative 
resources. Even more impressive results have occurred because of the 
threat of prosecution. In less than one year, 61 NCPs have come forward 
and entered into agreements to repay the $2.3 million they owe just due 
to the threat of action by the team. And we have only just begun.
                               conclusion
    We must continue these efforts. We must send a message that states 
will work with parents to assist them in complying with their child 
support orders. However, when a parent abandons their responsibility, 
it leaves the child and family more vulnerable to a life of poverty. We 
must be able to take swift and certain action. For some NCPS, this 
means the ultimate threat of incarceration must be present. The CSMAIT 
project sends that message. This message must be as clear as possible. 
If parents willfully attempt to evade their responsibility to their 
children, they will be prosecuted, regardless of how far they run. 
Tomorrow's adults are witnessing the message we send to today's non-
compliant NCPS. Our message must be clear and it must be certain. I 
urge you to support expansion of CSMAIT today, in hopes that tomorrow, 
failing to support children will be an issue we discuss in the past 
tense.

    Mr. Upton. Thank you very much.
    Mr. Skidmore.

                  TESTIMONY OF DONALD SKIDMORE

    Mr. Skidmore. Thank you, Mr. Chairman. My speech goes over 
about a minute, so I am going to----
    Mr. Upton. Okay. You can yield back time. We have had 
members do that today.
    Mr. Skidmore. Thank you. Ladies and gentlemen of the 
committee, I wish to thank you for this opportunity to speak on 
the issue of child support. I have been a Wayne County 
Sheriff's Deputy in Detroit, Michigan working under the 
direction of Sheriff Robert A. Ficano for 15 years.
    The last 6 years of my career has been as an investigator 
in the Friend of the Court unit. Myself and seven other 
investigators have been assigned to eight separate areas of 
Wayne County to serve civil neglect, non-support warrants. Our 
daily routine is that the eight of us would attempt to serve 28 
warrants each for the area. For each warrant, we would knock on 
the door, ask for the defendant and, either, make an arrest or 
leave a card asking for the defendant to voluntarily turn 
himself into the court at his or her convenience. This has an 
approximate 5 percent success rate.
    With 300,000 child support cases in Wayne County and 10 
percent of these cases having a valid civil warrant, this 
permits the investigator, usually, one attempt at arresting the 
defendant every year. Three common occurrences have been after 
a visit to the defendant's house, he calls up the complainant 
and has verbal and physical threats. For example, he says, 
``Why are you trying to do by sending the police to my house?''
    The second one is notification by the complainant that 
defendant called and said he was in the house when we were 
there and there was nothing we could do to go inside the house. 
And, finally, third, the defendant has moved.
    If the defendant is not arrested by the investigator or 
does not turn himself into the court, our last chance of 
bringing the defendant in friend of the court is when another 
law enforcement agency has contact with the defendant in his 
jurisdiction. This usually occurs as a result of a traffic stop 
or criminal investigation or driver's license revoked and 
warrant check is performed.
    Unfortunately, child neglect, non-support warrants are a 
civil matter, and a large majority of agencies will not lodge a 
defendant on a civil matter because of, one: officer's time out 
of service to process and lock up the defendant; two, the 
liability while the subject is temporarily locked up in their 
facility--suicide and assault; and three, the lack of lock-up 
facilities or monitoring staff. When this occurs, the defendant 
is advised and released to appear. In other words, free to go.
    With such a large number of current cases and the 
nationwide increase in child support cases, very little time is 
available to the investigator to actually investigate a case--
time that is essential for requiring photos of the subject, 
contacting the complainant for any information, driver's 
license and vehicle inquiries, employment checks and 
surveillance. All of these are vital tools in bringing a 
defendant to quick justice and allowing the system of 
collections to work better for the children. When time is made 
available for investigating a case in Wayne County, the 
sheriff's department are unbiasedly tops in the Nation. Working 
in plain clothes as one-man units in unmarked vehicles in Wayne 
County where you are taking people to jail that really do not 
want to go.
    Often, this makes me wonder why anyone would stay in this 
position. With all the other units and positions available in a 
1300 man department and most of them with lots of overtime and 
glory, why do they stay? They get no overtime, they work 8 
hours in disadvantaged neighborhoods observing children playing 
on barren dirt mounds with no toy trucks, dolls or spacemen, no 
shovels and pails, just children playing with the dirt next to 
used syringes and broken glass. We encounter uncooperative, 
rude and deceiving relatives, all of whom have been taught to 
always tell the police that the person they ask for isn't home. 
What an environment to expose something as precious as a child 
to.
    In the middle of all of this, I think back when I was a 
child and just reflect on how fortunate I was to have two 
loving parents that would give me and do anything for me and my 
three sisters--total, unconditional love. This kind of love and 
support seems to always carry on generation to generation is 
very much needed today. I understand everyone has the right to 
bring a child into the world. What I don't understand is the 
giving up on a child by a parent. Just because you no longer 
want to or can be with the mother or father of your child, does 
not mean that you walk out, ending your responsibility to your 
child. This is just the beginning. By leaving, you have 
complicated an already complex situation, raising a child. As 
human beings, we should have an inner desire and drive to bring 
a child or children in everything they deserve: love, family 
structure, food, shelter and a safe, healthy environment to 
grow.
    My wife and I are unable to conceive children and I can't 
imagine being able to give the gift of life and then turning my 
back on such a priceless gift. The average support order per 
child in Wayne County is $40 per week. I would work four jobs 
and collect bottles on the side to make sure I, at least, did 
that. I am not a parent, but I know you can't raise a child on 
$160 per month. Why would a person want to deprive a child of a 
fair chance in an already cruel world.
    The most difficult thing for me to understand is no visits, 
no birthday cards, no presents. I can't comprehend lying in bed 
as a child on my birthday and not getting even a phone call 
from my mother or father on such a personal and special day.
    I must add that not all cases are this heartless, but these 
kind are becoming all too common in today's society. Child 
support evaders know the system. They keep the bond money in 
their wallet, knowing they have a warrant but they won't go to 
jail if they pay the bond, and it will be another year before 
they have to worry about another warrant. Many non-payers 
reason that they will pay a $500 to $1,000 bond once a year as 
opposed to making 52 payments of $100, equaling $5,200. This is 
a benefit in savings t a delinquent parent who thinks, ``I'll 
show him or her.''
    For these reasons, I am here today and I am still part of 
the unit. I have dedicated the rest of my career to child 
support enforcement. And after meeting Vanessa and Renata 
Kryskowski, you'll know why. Their unbelievable strength and 
courage is what gives me drive and desire to help children. As 
you may have already inferred, I wish all child neglect, non-
support warrants were felonies. To me it is not a civil matter 
to provide for a child, it is criminal.
    Mr. Upton. I might just have to--you do qualify for the 
Senate by running over your 5 minutes. But if you could just 
summarize in a couple sentences, it would be appreciated.
    Mr. Skidmore. Okay. I am not very good at that. The 
Michigan child support task force--Sheriff Robert A. Ficano 
being aware of the position, was the top law enforcement in the 
State of Michigan, that agreed to allow me to be a part of this 
child support task force. He knew it was not going to be funded 
at the time, and he still allowed me to be a part of it. That 
kind of got me--I am kind of thrown now here because I couldn't 
read all the way through.
    But, I believe the child support task force that is going 
on now is a good thing and needs to be here. What the child 
support task force is for me is I take two Federal warrants, 
ten civil warrants, one criminal warrant. And that's what the 
child support task force consists of for me, and I prosecute 
those people.
    [The prepared statement of Donald Skidmore follows.]
   Prepared Statement of Donald Skidmore, Investigator, Wayne County 
                          Sheriff's Department
    Ladies and gentleman of the committee, I wish to thank you for this 
opportunity to speak to you on the issue of child support enforcement.
    I have been a Wayne County Sheriffs Deputy in Detroit, Michigan 
working under the direction of Sheriff Robert A. Ficano for 15 years. 
The last six years of my career has been as an investigator in the 
Friend of the Court Unit. Myself and seven other investigators have 
been assigned to eight separate area's of Wayne County to serve Civil 
Neglect/Non-Support warrants. Our daily routine is that the eight of us 
would attempt to serve 25 warrants each for the area. For each warrant 
we would knock on a door, ask for the defendant and either make an 
arrest or leave a card asking the defendant to voluntarily turn himself 
in to the court at his or her convenience. This has only an approximate 
5% success rate. With 300,000 child support cases in Wayne County and 
10% (30,000) of these cases having a valid civil warrant, this permits 
the investigator usually one attempt at arresting the defendant every 
year.
    Three common occurrences after a visit to the defendants last known 
address are:

1. Verbal and/or physical threats to the complainant. For example the 
        defendant calls the complainant and says ``What are you trying 
        to do by sending the Police to my house?''
2. Notification by complainant that the defendant called and said that 
        he or she either answered the door or was in the house during 
        the officers visit.
3. The defendant has moved.
    If the defendant is not arrested by the investigator or does not 
turn himself into the court, our last chance of bringing the defendant 
in front of the court is when another law enforcement agency has 
contact with a defendant in their jurisdiction. This usually occurs as 
the result of a traffic stop or a criminal investigation where a 
drivers license and warrant check is preformed. Unfortunately, Child 
Neglect/Non-Support warrants are a civil matter and a large majority of 
agencies will not lodge a defendant on a civil matter because of:

1. Officers time out of service to process and lockup defendant.
2. Liability while subject is temporarily locked up in their facility 
        (i.e. suicide and assault).
3. Lack of lockup facilities or monitoring staff.
    When this occurs, the defendant is ``advised and released to 
Appear.'' In other words--free to go.
    With such a large number of current cases and the nationwide 
increase in child support cases very little time is available to the 
investigator to actually investigate a case. Time that is essential for 
acquiring photo's of the subject, contacting the complainant for any 
information on the defendant, drivers license and vehicle inquiries, 
employment checks and surveillance. All of these are vital tools in 
bringing a defendant to quick justice and allowing the system of 
collections to work better for the children. When time is made for 
investigating a case the Wayne County Sheriffs--Friend of the Court 
enforcement investigator's are unbiasedly tops in the nation. Working 
in plain clothes, as one man units, in unmarked vehicles, in Wayne 
County, where you're taking people to jail that really do not want to 
go, often this makes me wonder what keeps everyone in the unit? With 
all the other units and positions available in a 1,300 man department, 
and most of them with lots of overtime and glory, why do they stay? 
They get no overtime. They work eight hours in disadvantaged 
neighborhoods, observing children playing on baron dirt mounds with no 
toy trucks, dolls or spacemen; no shovels and pails, just children 
playing with the dirt next to used syringes and broken glass. We 
encounter uncooperative, rude and deceiving relatives all of whom have 
been taught to always tell the police that the person they ask for 
isn't home. What an environment to expose something as precious as a 
child to. In the middle of all of this I think back when I was a child 
and just reflect on how fortunate I was to have two loving parents that 
would give and do anything for me and my three sisters, total 
unconditional love. This kind of love and support seems to always carry 
on generation to generation and is very much needed today. I understand 
everyone has the right to bring a child into the world, what I don't 
understand is the giving up on a child by a parent. Just because you no 
longer want to or can be with the mother or father of your child does 
not mean that you walk out ending your responsibility to your child. 
This is just the beginning, by leaving you have complicated an already 
complex situation (raising a child). As human beings we should have an 
inner desire and drive to bring a child or children up with everything 
they deserve: love; family structure; food; shelter; and a safe healthy 
environment to grow.
    My wife and I are unable to conceive children, and I can't imagine 
being able to give the gift of life and then turning my back on such a 
priceless gift. The average child support order per child in Wayne 
County is $40 per week. I would work four jobs and collect bottles on 
the side to make sure I at least did that. I'm not a parent but I know 
you can't raise a child of any age on $160 per month. Why would a 
person want to deprive a child of a fair chance in an already cruel 
world? The most difficult thing for me to understand is no visits, no 
birthday cards and no presents. I can't comprehend laying in bed as a 
child on my birthday and not getting even a phone call from my mother 
or father on such a personal and special day. And I must add that not 
all cases are this heartless but these kind are becoming all to common 
in today's society.
    Child support evaders know the system. They keep the bond money in 
their wallet, knowing they have a warrant, but they won't go to jail if 
they pay the bond and it will be another year before they have to worry 
about another warrant. Many non-payers reason that they'll pay a $500 
to $1,000 bond once a year as a opposed to making 52 payments of $100 
equaling $5,200. This is a benefit and a savings to the delinquent 
parent who thinks ``I'll show him/her!''
    For these reasons I am here today and I am still part of the unit. 
I have dedicated the rest of my career to child support enforcement and 
after meeting Vanessa and Renata, you'll know why. Their unbelievable 
strength and courage is what gives me my drive and desire to help 
children. As you may have already inferred I wish all Child Neglect/
Non-Support warrants were felony's. To me its not a civil matter to not 
provide for a child it is criminal.
    This brings me to how I met Vanessa and Renata. Sheriff Robert A. 
Ficano agreed that child support enforcement in Wayne County needed to 
be stepped up. The Wayne County Sheriff Department and the Wayne County 
Friend of the Court were contacted by Special Agent Scott Vantrease of 
the Office of the Inspector General for the Department of Health and 
Human Services. It was agreed to by all agencies to commit an 
Investigator to a New Federal Pilot Program. The Michigan Child Support 
Multi-Agency Investigative team (CSMAIT). Sheriff Robert A. Ficano 
being aware that the position would not be funded by the federal 
government was one of only two top law enforcement officials that would 
commit an officer for the one year trail period. My assignment to the 
task force then began on July 1, 1998. The investigative portion of the 
task force consists of many hardworking and caring people including an 
Oakland County investigator April Hutchings, Special Agent Scott 
Vantrease, Sergeant Kevin Losen of the Wayne County Sheriffs Department 
and members of other Federal and State Law enforcement Agencies as well 
as many more people that have supported and participated in the task 
force that I have not been able to acknowledge, but they are out there 
and it would not have worked without them..
    In 72 working days we put together an office, a policy manual, and 
results that included 7 federal prosecutions, 64 civil warrant arrest, 
and 1 state criminal prosecution (the first prosecution for non-child 
support in Wayne County, the Philip Romita case). Combined these cases 
collected $3,773,276.10 in child support arrearages.
    In early 1999 Wayne County, through the Prosecutor's Office, has 
put together an aggressive commitment to prosecute 25-40 state criminal 
non-support cases by the end of the year. The Michigan Child Support 
Multi-Agency Investigative Team was the first group contacted to be a 
part of this program and I am extremely excited about all of this.
    In closing, we all know there is a need for child support 
enforcement. The long standing question is who funds it? Without the 
task force Vanessa and Renata would not be here and we know there are a 
lot more of them out there to help. I hope the people in Washington 
realize the direct benefits to children by funding child support 
enforcement. Thank you.

    Mr. Upton. Well, we appreciate your work and we appreciate 
very much your testimony today.
    Ms. Turetsky. Thank you.

                  TESTIMONY OF VICKI TURETSKY

    Ms. Turetsky. Chairman and committee members, my name is 
Vicki Turetsky from the Center for Law and Social Policy. I 
appreciate the opportunity to testify before you today. 
Although it's not listed on my resume, one of the experiences 
I've had is that I used to be a low-income mother with a non-
paying interstate child support case.
    The Department of Health and Human Services project is 
intended to address the most egregious child support cases. 
Some of these cases are the kind that get in the newspaper. 
They are very difficult cases to prosecute and they require a 
disproportionate amount of resources. There is a clear role for 
this Federal collaboration. The integrity of the child support 
system, like any law enforcement and criminal justice system, 
depends on its capacity to go after the worst offenders. 
Successful prosecution of active evaders can help set a climate 
where payment of child support, like taxes, is expected and 
automatic. It sends a societal message that you are responsible 
for the children you bring into this world. It helps persuade 
reluctant obligers that you cannot get away without paying. It 
helps the families involved.
    Federal sponsorship of the project is important because 
many active evaders cross State lines to avoid payment. Just as 
important, States often do not have the resources to pursue 
these cases systematically and they need the help. However, the 
HHS project has only a limited role in improving the overall 
performance of the child support program. It relies on our 
resource-intense case-by-case approach. Yet, this is a high 
volume business, and there is not time nor money to spend on 
every individual case.
    The majority of non-paying child support cases do not 
involve active, malicious evaders and hidden assets. They 
involve men and women scraping by, reluctant to pay when it's 
easy to avoid getting caught, and only tenuously attached to 
their children. These are, also, tough cases to work. To 
improve performance, the child support program needs systemic 
improvements as well as case by case strategies. Over the last 
2 or 3 years, program performance has improved, slowly but 
steadily in some States. However, in many States, performance 
has not improved. And the truth is that the program has a long 
way to go in every State before it makes a difference in most 
children's lives. The program must tackle a number of 
challenges on a system-wide basis.
    Let me mention five challenges. Insufficient resources is 
the first challenge; it is the heart of the matter. A recent 
analysis that we conducted indicates there is a direct 
correlation, a statistical correlation, between State 
performance and program resources. Most State programs are 
substantially underfunded and understaffed, compared to other 
human services programs. The data indicates the performance 
improves when staffing and spending levels increase. This is a 
situation where many State programs do not have enough 
resources to run an effective program. They do not know who is 
in their caseload; they do not have time to answer calls from 
parents; they do not have the resources to respond to computer 
prompts and work lists. The average child support worker 
carries over 1,000 nationwide. And, in some State, that 
staffing ratio is much higher. As TANF cases and collections 
decline, some States may see their budget and performance 
deteriorate.
    The second challenge is troubled automation efforts. The 
certification for State child support computers was October 1, 
1997. Only 37 States and territories are certified to date. 
While HHS review results in a number of those States, nine 
States, in particular, are lagging behind. Why has automation 
been so difficult. There are a number of reasons, but let me 
mention two.
    One is the computer vendors have not always delivered 
systems that perform well or on time. Technical expertise is 
particularly in short supply now as Y2K demands escalate. The 
other is the States with complex administrative and political 
environments have had the most trouble automating. According to 
a recent CLSP survey, most States with locally administered 
programs in contrast to State-run programs reported that it was 
harder and more costly to implement the State-wide computer.
    A third challenge is the implementation of new PRWORA 
requirements. Most child support directors say that the 
significant reforms enacted in PRWORA will help program 
performance. While it's still too early to judge, the full 
impact PRWORA gives States many of the tools they need and 
addresses many of the legal problem raised by the first panel. 
However, they are not easy to implement; they involve system 
changes; and they require the active cooperation of local 
players.
    A fourth challenge is realignment of child support with 
welfare reform. The system was originally set up to recover 
welfare costs, but with the decline of these cases and the 
focus on self-sufficiency, the Federal Government and States 
need to rethink the role of child support in time-limited TANF 
and to better position the program to help families become and 
remain self-sufficient.
    And the fifth challenge is to reevaluate the program's 
structure to centralize and streamline their administrative 
structure in some cases, to collaborate with HHS in expanding 
the Federal role in interstate enforcement. The Federal parent 
locator service operated by HHS has great potential for helping 
bridge the gap in enforcement in interstate cases and hard-to-
find obligers. In some, while HHS is to be commended for its 
multi-agency collaboration, much more needs to be done.
    [The prepared statement of Vicki Turetsky follows.]
Prepared Statement of Vicki Turetsky, Senior Staff Attorney, Center for 
                         Law and Social Policy
    I appreciate the opportunity to testify before you today. My name 
is Vicki Turetsky. I am a Senior Staff Attorney at the Center for Law 
and Social Policy. CLASP is a non-profit organization engaged in 
research, analysis, technical assistance and advocacy on issues 
affecting low-income families. CLASP has focused on child support 
issues for many years.
    The Department of Health and Human Services's Project: Save Our 
Children (Child Support Multi-Agency Investigative Team Project) is 
intended to address the most egregious child support cases: those 
noncustodial parents who can easily afford to support their children, 
owe a good deal of money, but deliberately walk away. They quit their 
jobs. They hide their assets. They change their Social Security 
numbers. They skip from state to state. They taunt their family over 
the Internet. These are not the ordinary child support cases. These are 
the kind of cases that get in the newspaper. They are very difficult 
cases to prosecute and require a disproportionate amount of resources, 
resources that state child support programs can not easily spare.
    The HHS project attempts to marshall and enhance the resources to 
pursue these evading noncustodial parents. The project is a 
collaborative effort to coordinate child support and law enforcement 
agencies at the federal, state, and local level. It relies on a case-
by-case strategy. The HHS screening unit essentially takes referrals 
from state child support programs for some of the most difficult cases 
and ``builds the file.'' If the case is an interstate case, the file is 
turned over to the U.S. attorney for prosecution under the Child 
Support Recovery Act. If it is an intrastate case, it is referred to 
local prosecutors. While it is too early to assess the benefits and 
costs of the project, it shows early promise.
    There is a clear role for this federal initiative. The integrity of 
the child support system partly depends on its capacity to go after the 
worst offenders. Successful prosecution of active evaders can help set 
a climate where payment of child support, like taxes, is expected and 
automatic. It sends a moral message that it is wrong to avoid paying 
child support. It sends a deterrent message to reluctant obligors that 
they can not get away with not paying. It sends a prophylactic message 
to young men and women that they are responsible for the children that 
they bring into the world. Federal sponsorship of the project is 
important because many active evaders cross state lines to avoid 
payment. Just as important, states often do not have the resources to 
pursue these cases systematically, and they need the help.
    However, the HHS project has only a small role in improving the 
performance of the child support program. It relies on a resource-
intense, case-by-case approach. Yet this is a high-volume business, and 
there is not time or money to spend on every individual case. The 
majority of nonpaying child support cases do not involve active evaders 
and hidden assets. They involve men and women scraping by, reluctant to 
pay when it is easy to avoid getting caught, and only tenuously 
attached to their children. These also are tough cases to work. Some 
have excuses for not paying. Some have geniune hardships. Some are 
unemployed. Yet children need the support--financial and emotional--of 
both parents. Most children are worse off financially than their 
noncustodial parents.
    The child support program is complex, difficult to administer, and 
in many ways works against itself. There are a lot of mixed messages in 
the program. It is supposed to recover welfare costs, but it is 
supposed to help families achieve self-sufficiency. It is supposed to 
aggressively pursue ``deadbeat dads,'' but it is supposed to respond 
flexibly to low-income fathers. It is supposed to collect support in 
every case, but it is not supposed to intrude in people's lives. It is 
supposed to operate as a highly automated, streamlined program, but it 
is supposed to rely on a diverse and fragmented group of judges, clerks 
of court, and district attorneys to staff the program.
    To improve performance across-the-board, the child support program 
needs systemic improvements, as well as case-by-case strategies. Over 
the last two or three years, the program performance has improved 
slowly but steadily in some states. This is likely attributable to 
increased automation, a stronger federal role in finding noncustodial 
parents, new paternity and enforcement tools enacted by the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996, and a 
stronger economy. However, in many states, performance has not 
improved. The truth is that the program has a long way to go in every 
state before it makes a difference in most children's lives. The 
program must tackle a number of challenges on a system-wide basis:
    Insufficient resources. A recent analysis conducted by CLASP 
indicates that there is a direct correlation between state performance 
and program resources. The data indicate that most state programs are 
substantially under funded and understaffed compared to other human 
services programs. The data also indicates that performance improves 
when staffing and spending levels increase. This is a situation where 
many state programs do not have enough resources to run a cost-
effective program. They do not know who is in their caseload. They do 
not have time to answer calls from parents. They do not have the 
resources to respond to computer prompts and work lists. The average 
child support worker carries over a 1,000 cases nationwide, and in some 
states, the staffing ratio is much higher. According to a recent study 
by the Lewin Group, a third of states rely at least in part on TANF 
collections to fund their child support program. As TANF cases and 
collections decline, some states may see their budget and performance 
deteriorate. Other states will face budget declines as a result of new 
federal incentive payment rules enacted by Congress last session.
    Troubled automation efforts. The certification deadline for state 
child support computers was October 1, 1997. Only 37 states and 
territories are certified to date. While HHS review results are pending 
in a number of states, nine states are lagging behind.<SUP>1</SUP> Why 
has automation been so difficult? There are a number of reasons, but 
let me mention two. One is that computer vendors have not always 
delivered systems that performed well or on time. Technical expertise 
is in particularly short supply now, as Y2K demands accelerate. The 
other is that states with complex administrative and political 
environments have had the most trouble automating. This is not simply a 
``big state problem,'' although big caseloads are a part of the 
complexity. Rather, it is primarily those big states in which the child 
support program is administered by counties, the local courts, or 
locally-elected district attorneys. According to a recent CLASP survey, 
state child support directors reported many benefits from automation. 
However, most states with locally-administered programs reported that 
it was harder and more costly to implement the statewide computer. The 
implementation challenge will not be over once these states have 
certified systems. Computer management is a continuous process. States 
will have to upgrade or replace existing systems to comply with PRWORA 
and to avoid obsolete technology.
---------------------------------------------------------------------------
    \1\ As of November 1998. California, Indiana, Kansas, Michigan, 
Nebraska, Nevada, Ohio, Pennsylvania, and South Carolina. The District 
of Columbia and the Virgin Islands also are lagging behind.
---------------------------------------------------------------------------
    Implementation of new PRWORA requirements. Most child support 
directors say that the significant reforms enacted in PRWORA will help 
program performance. However, they are not easy to implement. Most of 
the reforms involve computer systems changes, while many require the 
active cooperation of the courts and local child support officials. For 
example, the centralized disbursement unit should help improve payment 
processing and get money to families faster. However, in some states, 
local clerks of court are reluctant to centralize payment processing. 
State programs need time and resources to integrate these changes. But 
children need their help now.
    Realignment of child support with welfare reform. The child support 
system was originally set up to recover welfare costs, and nearly all 
of the cases in the system involved current welfare recipients. 
However, with the decline in TANF caseloads and as the program has 
evolved over time, two-thirds of the cases now involve low-income 
working parents who have left or were never on welfare. The federal 
government and states need to rethink the role of child support in a 
time-limited TANF world, and to better position the program to help 
families become and remain self-sufficient. This means getting more 
support in the hands of families, providing better services to low-
income mothers and fathers, and allocating more federal and state 
resources to service delivery. The current emphasis on recovering 
welfare costs may actually work against welfare reform goals, 
encouraging some states to underinvest in the program and to underserve 
low-income working families.
    Reevaluating the program structure. For many years, advocates have 
encouraged states to centralize and streamline their administrative 
structure, and to expand the federal role in interstate enforcement. 
While there is no easy solution to a state's complex operating 
environment, many states are taking a closer look at the strengths and 
weaknesses of county-based and court-based structures. The Federal 
Parent Locator Service, operated by HHS, has great potential for 
helping bridge the gap in enforcement in interstate cases and hard-to-
find obligors. The program needs to sort out which functions and 
activities are best performed at the federal, state, and local levels 
in order to develop a more coherent program structure.
    In sum, the child support program is in the middle of change. 
Caseload research, development of improved program models, federal 
leadership, and effective state implementation are all critical 
ingredients in improving the program. While HHS is to be commended for 
its multi-agency investigative initiative, much more needs to be done.

    Mr. Upton. Thank you. I am going to yield my 5 minutes to 
Mr. Bryant, who has a 12:30 meeting. So, Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. I will try to be as 
quick as I can, because I do want to hear from all of you on 
certain questions. We have got 5 minutes, so let me move on. 
But I am going to ask the questions now.
    Let me see, we have Deputy Skidmore from Michigan. I want 
you, in a minute, to tell me about credit reports and access to 
credit information and if that would be helpful, and that 
issue.
    For the rest of the members of the committee, I would like 
to know, maybe, one obstacle that we might could change--we 
might remove at the Federal level, if there was one thing you 
could change in your collection efforts. And let me see, Mr. 
Young, you are from Virginia?
    Mr. Young. Yes, sir.
    Mr. Bryant. Being from Tennessee, we have no State income 
tax. But I assume States that have income tax, do they not 
withhold?
    Mr. Young. Yes, sir, we intercept both State and Federal.
    Mr. Bryant. Okay. That was my question, if you do the 
State's. But if, again, if we could start with Deputy Skidmore, 
and then the rest of you could chime in with the one thing that 
you think would give you the most assistance.
    Mr. Skidmore. Yes, credit reports is something that I've 
just found out about. One of the other counties in Michigan 
uses them. It is an amazing tool. Before you could do nothing 
but run a vehicle and a driver's license check. With a credit 
report, you run the report, they have something: a credit card, 
a house, a boat; something is on there. Then I would subpoena 
these records, and without a doubt, they would inflate their 
income or say that they have been working for 20 years when, in 
fact, they have been reporting to the friend of the court that 
they have been working on and off at all times.
    It was something I just came in contact with. They're 
studying--apparently, I asked them to look into the legalities 
of utilizing these credit reports for my prosecution, and they 
are supposed to get back to me on it. But, it is a great tool, 
it provides a wealth of information in tracking down somebody. 
And every time they apply for a card or credit card or credit 
anywhere in the country, it shows up on their TRWs. So I just 
go to that State for further information. But it's a great 
tool.
    Mr. Bryant. And you have access to that now and the States 
cooperate and it seems to work?
    Mr. Skidmore. Only through the task force have I actually 
gained access into this. Oakland County, which is the county 
next to me, is part of the task force in Michigan and they have 
a direct line. They pay so much money--a system set up where 
they can run credit reports on our cases.
    Mr. Bryant. Okay. And the rest of you, if you could just 
speak, if you could have one thing to contribute that would 
improve the collections?
    Mr. Hartwig. My confidence to speak is somewhat shaken by 
the fact the last time I did, everyone left. But----
    Mr. Upton. We waited for the buzzer to go off.
    Mr. Hartwig. Our office, the Office of Inspector General, 
has made a number of recommendations. The one that I think is 
the most important is the garnishment, not just of wages but of 
Federal benefits. As we have looked at our child support 
enforcement efforts where payment is made directly, where the 
non-custodial spouse does not personally make payments but the 
payment is made directly through a garnishment, it is a much 
better system. And I know that some of those garnishments can 
be done administratively; some of those garnishments, I 
believe, need legislation. But I think garnishment is probably 
the most effective way of getting the money to the proper 
person.
    Just quickly, I will say that one of the things that we 
have implemented in the task force is access to the data bases 
that can be used to track down parents and to make that 
available to all levels of law enforcement.
    Mr. Monahan. I would add that since we are at the beginning 
of implementing this task force, it is probably a little early 
to know exactly what obstacles we will face. I will note the 
President's budget calls for an increase in support for the 
U.S. Attorneys' offices so that they could obtain additional 
paralegal assistance to help them process cases in every 
district of the country. I think that would be a big step 
forward.
    Mr. Young. Sir, I would submit that judicial independence, 
being what it is, and we all respect that--but you saw one lady 
sit here today who told you her husband had been to jail twice. 
And, it made no impact. So, I would submit, it is not an 
obstacle. But, I would submit, and many of you are lawyers, 
practicing attorneys, that you would look at the sentencing 
guidelines to see how people are being put in jail and for what 
length of time, and see if you are satisfied with those 
guidelines to our judiciary.
    Mr. Bryant. Chairman, can I have 1 more minute for one more 
speaker--or, I am sorry, maybe two?
    Mr. Dutkowski. Representative, I feel like a child whose 
mother said you can have one toy in Toys 'R Us, and I was 
thrown back by the question, and the only thing I could tell 
you from my perspective, given what I learned in 6 years in 
this program, is I wish you could give me a way to get to both 
parents the message that the kids count, that the kids are 
important. I have seen parents do amazing things to each other 
and their children in the name of getting even with each other. 
And, I just wish I had some way of figuring out how to make 
this program teach those parents that that is just absolutely 
ridiculous and foolish.
    Ms. Turetsky. I feel the same way. I would say, continued 
Federal financial support of the program. Expanded, an expanded 
Federal role in interstate and hard-to-find cases. And, if I 
can cheat with one more thing, Federal HHS development of 
research data and models for States to draw on in running their 
programs.
    Mr. Bryant. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Klink.
    Mr. Klink. Thank you, Mr. Chairman.
    Mr. Hartwig, I want to assure you I think the IG's office 
has been very committed and creative in taking on this role. 
The task force, I think, is a good example of this, but I am a 
little bit concerned that the IG's office has taken on the 
front-seat job of driving this thing and the FBI and the 
Justice Department appear to be in the backseat, not treating 
these cases as if they are real crimes. And, you know, I may 
give you an example of what I am talking about.
    According to the memorandum of understanding that set up 
these task forces, the IG takes on the role as director of 
operations in each of these task forces. I would like to know 
why that is. In fact, if this is really a priority for Federal 
law enforcement, and we are trying to send a message that it is 
important to track down these deadbeat parents, why isn't the 
FBI assuming that position as the Nation's designated 
investigator for Federal crimes?
    Mr. Hartwig. I think the initial look at the task force was 
a partnership between the Office of Inspector General and the 
Office of Child Support Enforcement. And, I think we looked at 
it as our oversight role looking at child support enforcement. 
And, as we got into the investigation, the criminal 
investigation of child support, we thought if we looked to take 
all the resources that were available, Federal, State and 
local, including the FBI, including the United States Marshal 
Service, I think we have asked the Customs Service to join the 
task force, that we thought that we had an important, 
coordinative role. I don't know that the FBI could do a better 
job, but I think we looked at it as a partnership between us 
and the Office of Child Support Enforcement. I think as we look 
at the task forces and how they operate, I know we see a role 
for local law enforcement having a supervisory role. I think it 
was a natural progression that we would take over the 
investigative leadership; the Office of Child Support 
Enforcement would take over the leadership on the 
administrative side. I don't think it was due to any lack of 
emphasis on the Federal Bureau of Investigation's part.
    Mr. Klink. Well, I wish, I actually wish, again, Mr. 
Chairman, that we had the FBI here. I would like to hear from 
them. And, hopefully, in an additional hearing on down the 
road, we can do that. Because, I mean we really have to get to 
the bottom of this. We are dealing with such a minuscule number 
of cases also. And, that troubles me, too, that we don't have 
more resources to deal with a wider range of these cases.
    Normally, the Inspector General is in charge of auditing 
and evaluating the effectiveness of the programs. However, when 
the Inspector General actually is implementing the program, you 
can't be expected to, also, be an independent evaluator.
    Now, in the next few weeks, I want to ask the General 
Accounting Office to review the role of the FBI and the U.S. 
Attorney's office in Federal child support enforcement efforts. 
One of the questions that I want to ask is whether the FBI and 
the U.S. Attorneys are hiding behind the Inspector General's 
efforts instead of carrying out the responsibilities for 
prosecuting Federal crimes that Congress has given them.
    Before we finish here today, I want to put on the record a 
correspondence between Mr. Hartwig and the Department of 
Justice concerning why the IG should become special U.S. 
marshals and carry guns to prosecute child support cases. And I 
want to quote from an early 1996 memo from a Justice attorney, 
``Unfortunately, the FBI is unable to devote the full manpower 
and resources necessary to effectively police the Child Support 
Recovery Act. Additionally, the fugitive units lack experience 
and training in what are often called white collar 
investigations.''
    Mr. Hartwig, I would just ask you to kind of respond to 
that, and is it still true today that the cases are in the 
FBI's fugitive units and that they are incompetent in their 
ability to investigate all of these--in addition, let's face 
it, the FBI has some very, very serious cases. I am not 
minimalizing what the FBI is doing. I am just saying that as 
these things stack up, they are combating terrorism; they are 
combating drug dealers; they are combating internet crime; 
they--all the things that they are doing, where does this fit 
in?
    Mr. Hartwig. Let me answer the question in two parts. 
First, the Office of Inspector General has three components: 
audit, evaluation and investigations. And, Investigations is 
staffed by criminal investigators that conduct criminal 
investigations, and have been doing so for years. Actually, I 
think, in answer to the deputization question--our first--the 
Conference of Special Deputy U.S. Marshal Status on OIG agents 
was, I think, in 1987 and had to do with healthcare.
    Mr. Klink. Let me just stop you for a second. Are you 
auditing yourself throughout this process?
    Mr. Hartwig. That is the second issue. I think, as we look 
at partnership, our first partnership in HHS was Operation 
Restore Trust, where we partnered with the Health Care 
Financing Administration and the Administration on Aging on 
health care. It is a fine line where you look to partner with 
one of the components and exercise oversight. And, I think, in 
this case, we look at it as a law enforcement partnership. But 
we can still have our oversight role as far as how well the 
Office of Child Support Enforcement is doing with, for 
instance, the parent locator system. We are currently auditing 
that today. We are looking at how well the Office of Child 
Support Enforcement looks at reevaluating the child support 
orders. I think it is a difficult line for the IG. But I think 
we can partner with operating divisions on law enforcement 
issues while looking to prosecute and bring people who should 
be prosecuted to justice. At the same time, we can maintain our 
oversight role--nothing personal--but maintain our oversight 
role with respect to the individuals or agencies that we 
partner with.
    Mr. Klink. I thank you for your patience, Mr. Chairman.
    Perhaps you didn't understand my question, Mr. Hartwig. 
Where is the FBI in all of this?
    Mr. Hartwig. They are an active member of the task force. I 
think they assign most of these cases to the fugitive squad, 
because many of them are, indeed, fugitives. And, I would not 
criticize--I don't know the memo you wrote. I don't----
    Mr. Klink. Well, they are saying they are not competent to 
deal with it. They don't, apparently, don't have the manpower, 
and then, they don't have access to the Internet. I mean, I 
don't know what is going on, but there is no evidence here that 
the FBI is competently going after significant numbers of these 
people.
    Mr. Hartwig. I found them to be competent. I think their 
fugitives because they are fugitives. One of the things we have 
tried to do at the task force is take the approach that the 
whole is greater than the sum of the parts. I am uncomfortable 
with representing the commitment of the FBI, but they have been 
in active partnership with us. We have actually exchanged 
supervisors with the FBI and we look to cooperate and to use 
whatever resources are available to the most effective level.
    Mr. Klink. Well, thank you very much, Mr. Chairman. I will 
ask the GAO to take a look at this, because, with this hearing, 
you have raised some issues and I don't think we have put them 
to rest. Thank you.
    Mr. Upton. Thank you. As I listened to the testimony of all 
of you and read it over last night, one of the things that 
really sticks out as a red flag to me is the Child Support 
Recovery Act which Congress passed in 1992. I cannot imagine 
very many--I don't remember the specific vote; I am sure I 
voted for it, sort of like being against fraud and abuse. I am 
against it; we are all for child support recovery, but it 
doesn't look like we had a very good record between then and 
when we passed the welfare reform bill.
    Mr. Dutkowski, I think you mentioned that you had referred 
only--or Michigan had referred only--44 cases during that 6 
years, maybe 5 years by the time the regs were put out, to the 
U.S. Attorney's office and for some reason they only were able 
to convict two. So, the big change was, in fact, the welfare 
reform bill.
    My district is on the State line with Indiana, so we have a 
lot of folks that leave one State and go to the other and they 
just, sort of, disappear. But what did we not do in the Child 
Support Recovery Act that we did do in welfare reform?
    What is the big difference that made the States react in 
such a positive way? Was it the relationship that was 
established with the national task force in terms of the three 
States of which Michigan was blessed to be one? What was it?
    Mr. Dutkowski. Mr. Chairman, I would like to answer a 
couple of those issues. First of all, when the initial law was 
passed, it was a misdemeanor. And, trying to convince law 
enforcement in other States to respond to a misdemeanor when 
they have so many issues facing them on a felony level, it was 
very difficult to get those cases addressed.
    The other thing was that the U.S. Attorneys, very honestly 
early on, had so much going on that taking misdemeanor to court 
was not viewed as a good use of their resources. So, the 
criteria was very stringent for them receiving a case from us. 
And, so we had a lot of work to do to get cases put together 
to, even, be accepted by the U.S. Attorney.
    What has happened since then is that the modification in 
the law to make it a felony, welfare reform which has drawn 
more attention to this issue, and this project which, along 
with the Department of Justice's focus on this and message to 
the U.S. Attorneys that this is important. And, when that has 
occurred over the last 2 or 3 years, we have had more contact 
with the U.S. Attorneys. And, in the last year under this 
project, we have had more cases accepted by the project with 
much fewer criteria, which made it easier for us to refer those 
cases.
    Mr. Upton. Again, as I read the testimony and as I listened 
the last hour, TANF comes up quite a bit. This is the funds 
that were approved for the States. Our Governor has used these 
dollars very wisely, has tried to hold Congress off at the pass 
for stealing the money back after a 5-year commitment was made. 
And, I think every State has been there with their hand up.
    When you look and listen to some of the statistics, Mr. 
Young, you talked about, for every dollar you spend, you 
collect $5.64. That is a pretty good deal. Tell me what some of 
the--I mean, are all the States being as good as Michigan has 
been? Are you using in Virginia the TANF funds? Maybe Mr. 
Monahan and Mr. Hartwig, sort of, overseen the whole country. 
Are all 50 States beginning to use this as, sort of, money that 
maybe they didn't think was going to be because of the progress 
made in welfare? Said, ``Hey, we have a pretty good return on 
these dollars coming back''; shall we follow the same example 
that was led by John Engler?
    Mr. Young. Absolutely, and as Mr. Dutkowski said, he went 
from welfare to work to using TANF dollars. Some of that is 
going on in Virginia as well. This is probably one of the best 
funded programs on the social side of the house that you will 
see. It is a generous program, would probably be the best way 
to put it at 66 percent reimbursement from the Office of Child 
Support Enforcement. It is not a ``get rich'' scheme. It does 
not give you lavish money, but it is generous enough that you 
can run the program and hire the people and buy the computers 
you need, if you fill out the right forms and do the right 
things.
    Mr. Upton. Mr. Monahan.
    Mr. Monahan. Mr. Chairman, you are exactly right. Since the 
President signed the welfare bill, we have found that States 
across the country have been using their TANF funds in creative 
ways to help people go from welfare to work and try to succeed. 
While TANF provides funding to States in a very flexible 
fashion, as you know, since 1975 there has been a separate 
child support program. As Mr. Young noted, the Federal 
Government provides 66 percent match for all administrative 
activities related to child support enforcement. The Federal 
Government provides substantial resources for all the 
enforcement tools that have been discussed by the panelists 
here and raised by you and others about how to locate parents, 
secure orders and enforce them.
    So, States really have two vehicles, although the main one 
really is the separate funding for child support.
    Mr. Upton. Mr. Hartwig, do you want to add to that?
    Mr. Hartwig. I have nothing to add.
    Mr. Upton. Okay. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. Let me ask, is there 
anybody that doesn't feel that Project Save Our Children is an 
effort in the right direction? Great, okay. I think Mr. Bryant 
gave everybody an opportunity to make that one statement; in 
some cases we gave more.
    But I think that, certainly, I would encourage all of you 
submit to this committee in writing, if you would like to 
expand on it. I am sure that the gentleman at the end of the 
table would be more than willing to read those and incorporate 
those in.
    Mr. Dutkowski, what change in Michigan, what couldn't you 
do before Project Save Our Children that you can do now?
    Mr. Dutkowski. Well, let me give you one good example that 
Representative Stupak mentioned. When he was State police 
officer, he would arrest someone in Detroit who had an arrest 
warrant from the upper peninsula. And, what do we do with him? 
We can't get him up there. And, I was telling a staff person 
that we have resolved this problem. We got everybody to the 
table under this project and you heard the long list of people 
that I mentioned are involved. And, when we got them to the 
table, the State police said, ``Well we move from site to site. 
We have posts all over the State. Why don't we, when you have 
somebody like that, pick them up and we will, basically, relay 
them from post to post and get them from where they are to 
where they need to be?'' There are very few, and I don't know 
about Wayne County, but there are very few that will go more 
than 60 miles to pick up someone. So, the State police have 
stepped forward and said, ``We'll do that.'' And, it is just a 
routine part of our process. We are going from place to place 
and we will transport them.
    The opening of communication has made a huge difference in 
terms of people taking responsibility for this, as something 
they have not paid as much attention to. And, when we break it 
down to its simplest elements, that this is a crime against 
children, they step forward and start dealing with that. And I 
have tried in 6 years, the 5 years before the project to find a 
way to do that and was totally unsuccessful until Chief Deering 
and Matt Kochanski from the IG's office came forward and said, 
``We'll help you.'' And it made all the difference in the world 
for us.
    Mr. Burr. Clearly, I believe Mr. Skidmore today would have 
driven that--success factor----
    Mr. Dutkowski. He can only drive one at a time.
    Mr. Burr. But I think you hit upon a much bigger theme, and 
I think that is what this committee needs to understand is that 
it wasn't until the partnership was formed between the Federal 
Government and State. Not that we have taken Mr. Monahan or Mr. 
Hartwig's creation and tried to force it. It is more the 
statement that was made by the formation of the partnership, 
not only to those deadbeats, but to the court system to law 
enforcement on a local level, that we are serious. We are 
serious in completing the task that we have been charged with 
doing.
    I am less concerned, Mr. Hartwig, with who plays what role, 
whether the FBI takes the lead or whether--whoever takes the 
lead. I am more concerned with the outcome. Are we making 
progress? How do we duplicate what we have done? Where else do 
we need demonstration projects and what do you need to do them? 
Less concerned with authorship and more concerned with success. 
I really don't care who plays what role as long as it is your 
belief and our belief that we are making progress.
    Mr. Skidmore, you have made the first arrest under Project 
Save Our Children or the first--I guess it was arrest of the 
ex-husband. Am I correct?
    Mr. Skidmore. I was the first arrest in Wayne County under 
the criminal statute, but me being part of the child support, 
the task force here, I take two Federal cases, ten civil cases 
and one criminal case. That was the first case in Wayne County 
ever to be prosecuted under the felony statute in our State. 
So, it was the task force that did that, but it was through the 
State that the prosecution took place.
    Mr. Burr. And, can you tell us anything about that arrest?
    Mr. Skidmore. It was quite the big ordeal. We had a lot of 
people involved and Mr. Rometta, the gentleman we arrested, all 
the news cameras, all five stations in the city of Detroit were 
there for the arrest. And we brought him down to the station. 
He wasn't aware of what happened. He just thought he was 
getting arrested, pay another $1,000, he told me, and I will be 
out, you know. This crazy female attorney is chasing after me 
and she won't leave me alone. And it turned out, we informed 
him a little while later that he was the first person charged 
in the State of Michigan, Wayne County, for a felony. He was 
facing up to 4 years in Jackson prison.
    Mr. Burr. What was his reaction?
    Mr. Skidmore. Oh, his knees crumbled and we had to hold him 
up there for a minute. He was----
    Mr. Burr. What do you believe the message was that was sent 
to other deadbeats in that viewing areas in Michigan.
    Mr. Skidmore. It was powerful. It was powerful. My phone--I 
had three offices for all the different things and the phone 
was off the hook. People, clerks in the courtroom where we 
arraigned him, were sending me messages. They had cases they 
wanted all done. The news media on it--when we arrive back in 
Detroit tomorrow, all of the news channels are going to be 
there again to interview Vanessa and Renata. And, it is just 
going to be another huge, positive thing that is going to 
happen. And, we don't use high dollars or low dollars. We just 
pick randomly. And that is what I think is a really neat 
message it sent. You know, you don't have to be $100,000 
behind. No, you can be $5,000 behind, $4,000 behind. You never 
know if we are going to come after you and charge you with a 
felony.
    Mr. Burr. Last question and then one comment if I could: I 
am not going to ask you, Mr. Hartwig or Mr. Monahan, how you 
came to the selection criteria of the $20,000 the 1 year in 
arrears, that type of thing. I think, clearly, whoever made 
that process had to distinguish in some way. And I think that 
the women that were in earlier, when they said, ``Why not 
$10,000?'' I think that is a question we would all ask. Why not 
$1?
    But let me commend the effort in the right direction, your 
willingness to refine this as we go through the process. And, 
let me suggest to all that are on this panel and the members 
that several of you hit on the key. Never let us forget whose 
human face it is behind the issue that we are trying to solve. 
It is those who have the least effect on the entire process, 
and I think, clearly, the partnership could expand to include 
many more people. And, I reference to the American people who 
would gladly join in this effort, as long as they feel we are 
serious and we are successful at it.
    With that, let me yield back, Mr. Chairman.
    Mr. Hartwig. Let me just, if I could, respond to what I 
think is a very legitimate concern that you had concerning the 
targeting of just money. And, that benchmark was one of the 
benchmarks that we have established. We have made it clear that 
we are also looking at the financial ability of the non-
custodial spouse to pay. But we have also had a benchmark that 
where the health and welfare of children are at risk, that we 
would take any of those cases. And, we have actually prosecuted 
cases where the arrearage is--I can recall one in Pennsylvania, 
the arrearage was $6,000 and that case was prosecuted in 
Federal court because of the issue related to the health and 
welfare of the children. I share your concern and I don't think 
that we should ever make child support purely a financial 
consideration because it is the welfare and health of children 
that we are talking about here.
    I think, as we look at this task force, the monetary amount 
was one of the benchmarks that we used to determine 
egregiousness. But, we had a case here in Virginia, if I could 
just digress for a moment, where the custodial spouse was 
working and in danger of losing her position because of a 
daughter that required constant feeding. And, even though the 
arrearages of that amount was not a great amount, we thought 
that that case required a Federal presence and a Federal 
prosecution since the non-custodial spouse had moved out of the 
State.
    Mr. Burr. Thank you.
    Mr. Upton. Thank you, Mr. Burr.
    Just a couple of questions, sort of, to follow up. Mr. 
Young, you talked about one of the things that you have done in 
Virginia is to send letters to some 57,000 folks. Are all of 
those, or some of those outside the State of Virginia, as well? 
Were they all in-state?
    Mr. Young. They were the 57,000, if you will, most 
egregious and some of them were out-of-state. And, we got some 
response. Admittedly, we get more response from within the 
State of Virginia because we have more control in the State of 
Virginia.
    Mr. Upton. And, does the State of Virginia--are they able 
to take away driver's license or try and restrict or garnish 
wages, garnish pensions?
    Mr. Young. Yes, yes, the legislature of Virginia passed 
that law in 1995, and unfortunately, it was before the two 
ladies testified today. That law was not in effect at that 
time, and so we have passed that law to take away drivers' 
licenses. And, we have revoked 923 licenses and we are going to 
revoke a whole lot more.
    Ms. DeGette said that just the impetus to the threat, the 
notice of intent to revoke the license. That is growing old and 
a lot of the non-custodial parents get the notice of intent and 
they say, ``fine,'' and they are starting to drive anyway. 
Then, we take their license. They up the ante and they drive 
without the damn license. It doesn't help any.
    Mr. Upton. And, what do you do with folks that, say, find 
greener pastures and move to Michigan from Virginia? Are you 
able to dun their wages? Are you able to have some reciprocal 
agreements with States? And, if so, how many?
    Mr. Young. That is the beauty of the connection with the 
Federal case registry that comes out. I am receiving, as of 
last month, 2,000 new employee records a day in Virginia. I am 
having trouble processing them. Every day I am getting new jobs 
where so and so went to work in Idaho, Michigan, Kansas, 
whatever. First, we verify is he employed there, and then we 
send an automatic wage withholding to that company in Michigan 
or wherever and----
    Mr. Upton. And, it works?
    Mr. Young. And, does it work, too, from folks who 
tragically leave our State, Mr. Dutkowski?
    Mr. Dutkowski. The few who leave, it does work, yes.
    Mr. Upton. Mr. Skidmore, we are delighted to help. This was 
a great story and wonderful effort to remind folks in Michigan 
in terms of what is happening in Michigan, and hopefully, the 
other 17 States that embark on a similar thing as Ohio, 
Illinois and Michigan have done. But, I noticed in your 
testimony that you talked about 300,000 folks that pay child 
support or are supposed to pay child support. I presume, when 
you talk about those, maybe, Mr. Dutkowski, you can comment, 
too, it probably follows the national trend line which, of 
those 300,000, only a quarter are up to speed in terms of 
making their payments. Is that about right? So, three quarters 
of those are not.
    Mr. Dutkowski. I would really like to answer that question 
because that did come up earlier in the discussion, and the 
facts I have in front of me are from the Office of Child 
Support Enforcement Report, the 158 that we submit to the 
Federal Government for fiscal year 1998. And in that of all the 
cases in Michigan on public assistance, we collected 31.1 
percent ahead of collection, which is much higher than you will 
find in an average. But, what I wanted to bring to your 
attention is the non-public assistance rate. Among people who 
are not on public assistance, current support is being 
collected at a rate of 72 percent for people who are not on 
assistance. It is much, much tougher to enforce cases where 
public assistance is involved. And in part, that is because the 
resources on the part of the non-custodial parent aren't quite 
as great.
    So, we are collecting on about 30 percent of the cases 
across the board who are on public assistance. And overall in 
Michigan, it is probably close to 40 percent for everyone, when 
you consider non-custodial parents, as well, or non-public 
assistance cases.
    Mr. Upton. Mr. Hartwig, you indicated in your testimony 
that a third of the kids in public assistance lack paternity 
tests?
    Mr. Hartwig. In Michigan, I am pretty sure, you don't get 
on public assistance if you don't name the father. Isn't that 
right?
    Mr. Dutkowski. That is one of the requirements for public 
assistance. You have to cooperate with the child support 
program. Yes, sir.
    Mr. Upton. Do you know about how many other States have--
does North Carolina have that?
    Mr. Monahan. Mr. Chairman, every State is required to make 
parents cooperate as a condition of receiving public 
assistance. Even with cooperation, though, sometimes paternity 
isn't established. I have the State by State figures here.
    [The information follows:]

                      Average Number of Children Requiring Paternity Determination, FY 1998
----------------------------------------------------------------------------------------------------------------
                    States                        Total                      States                      Total
----------------------------------------------------------------------------------------------------------------
Alabama.......................................    147,332  Montana...................................      4,340
Alaska........................................      7,297  Nebraska..................................     18,794
Arizona.......................................    161,529  Nevada....................................     17,243
Arkansas......................................     93,300  New Hampshire.............................      6,060
California....................................    119,099  New Jersey................................     86,626
Colorado......................................     27,450  New Mexico................................     16,277
Connecticut...................................     28,305  New York..................................    246,365
Delaware......................................     13,205  North Carolina............................      2,934
District of Columbia..........................     46,949  North Dakota..............................      7,188
Florida.......................................    225,407  Ohio......................................    187,414
Georgia.......................................    128,829  Oklahoma..................................     35,469
Guam..........................................      3,287  Oregon....................................     31,265
Hawaii........................................      9,098  Pennsylvania..............................    108,420
Idaho.........................................     11,098  Puerto Rico...............................      2,263
Illinois......................................    345,984  Rhode Island..............................     19,588
Indiana.......................................     59,453  South Carolina............................    112,379
Iowa..........................................     24,073  South Dakota..............................      1,543
Kansas........................................     13,997  Tennessee.................................     70,882
Kentucky......................................     50,631  Texas.....................................    221,853
Louisiana.....................................    130,198  Utah......................................     10,301
Maine.........................................     11,951  Vermont...................................      2,058
Maryland......................................     79,349  Virgin Islands............................      1,969
Massachusetts.................................     63,670  Virginia..................................    148,442
Michigan......................................     89,980  Washington................................     29,117
Minnesota.....................................     47,146  West Virginia.............................     23,919
Mississippi...................................    106,192  Wisconsin.................................     48,020
Missouri......................................     79,474  Wyoming...................................     22,164
----------------------------------------------------------------------------------------------------------------
                                                           Nationwide Totals.........................  3,607,176
----------------------------------------------------------------------------------------------------------------
Source: Form OCSE-156

    Mr. Upton. Thank you. Mr. Burr, do you have further 
questions?
    Mr. Burr. Just one followup. I am curious--to both of you 
at the end of the table--what electronically, what with the 
technological changes might either be out there today that are 
unutilized or around the corner that may be utilized in the 
future that Congress should be aware of, not only from the 
confidentiality side but from our ability to give everybody in 
this process the access to use?
    Mr. Monahan. I think, we should, first, be proud of what we 
have done. The welfare bill of 1996 provided access to 
electronic databases that have opened up a world that really 
wasn't available to child support enforcement. A national 
directory of new hires was established to show when a non-
custodial parent moves and changes jobs. Within a couple of 
days, you can find out where that person is using the system. 
We are just beginning to work on access to financial 
institutions and other sources of information about where non-
custodial parents are.
    Undoubtedly, sir, I am sure there are going to be things 
that we will want to do down the road to enhance that capacity. 
I think that we and our partners, the States--and you are great 
to identify two of these extraordinary child support directors 
here on the panel with us as we all implement this project, we 
are going to find other things that are needed. In the child 
support program over the last couple of years, we have been 
adding new data bases and new opportunities to track people 
that just weren't there previously.
    Jack, is there anything?
    Mr. Hartwig. I don't have much to add, except that I think 
one of the things that we have tried to do is, as you deal with 
a number of investigations, you find new data that is available 
to you and new uses for that data. I don't know that I could 
point to single restrictions related to law enforcement on the 
use of that data. There are some restrictions on the sharing of 
the data, where we may have access on the Federal level to 
data. Some of that data--there is an inability for us to share 
with a local police officer or a State police officer. I could 
get more information for you on that. I know there are some 
restrictions that, if we obtain the data federally, as to 
whether we can share that in a purely State investigation.
    Mr. Burr. I would be willing to bet that, if the truth be 
known, the credit card company that is sending the next 
application probably knows about the move much quicker than we 
do, the one chasing.
    Mr. Young. Sir, I would like to only add two other 
opportunities, technologically, that need to be explored. The 
financial institution data matches working with the banks. Make 
no mistake, the banking industry is not really anxious to work 
with us. And, I won't speak for them, but I will tell you I 
have worked with them and they are committed to the 
confidentiality of your and my bank records. And, I understand 
that.
    Mr. Burr. All your banks in Virginia are now owned by North 
Carolina companies.
    Mr. Young. There is no such thing as a Virginia bank 
anymore.
    Mr. Upton. Is that why First Union is laying off 6,000 
people?
    Mr. Young. My brother works for First Union, I think.
    But anyway, the other thing is electronic signatures. For 
as many times as we brought the two ladies into our offices to 
do things, sign these documents and bring the Federal marshals 
the warrants and sign affidavits and give them some things--I 
am trying to get a law introduced in Virginia for electronic 
signatures. When you go into Sears and buy something, you walk 
out with a paper. They don't keep any paper. They have got your 
signature. So, I want to try to introduce that. The judicial 
system is not necessarily embracing that and we need some help 
in that area.
    Mr. Burr. Amazon.com did not require my signature, either, 
when I did it from my computer at home.
    Mr. Young. Absolutely.
    Mr. Burr. I thank the chairman.
    Mr. Upton. Well, thank you. Again, I appreciate all of you 
for staying with us this morning. You have provided some very 
valuable testimony, and we wish you very well in the cause that 
we all support. Thanks very much for your leadership.
    For the record, there are a number of items that we are 
going to ask to be submitted.
    And you are now excused. Thank you.
    [Whereupon, at 12:56 p.m., the subcommittee was adjourned.]

</pre></body></html>
